The NRC OIG Hotline
The Hotline Program provides NRC employees, other Government employees, licensee/utility
employees, contractors, and the public with a confidential means of reporting suspicious
activity concerning fraud, waste, abuse, and employee or management misconduct.
Mismanagement of agency programs or danger to public health and safety may also be
reported. We do not attempt to identify persons contacting the Hotline.

What should be reported:
• Contract and Procurement Irregularities    • Abuse of Authority
• Conflicts of Interest                      • Misuse of Government Credit Card
• Theft and Misuse of Property               • Time and Attendance Abuse
• Travel Fraud                               • Misuse of Information Technology Resources
• Misconduct                                 • Program Mismanagement

                                                                                                    Office of the Inspector General
Ways To Contact the OIG
                               Call:                                                        Semiannual Report to Congress
                               OIG Hotline
                               1-800-233-3497                                                      October 1, 2012–March 31, 2013
                               TDD: 1-800-270-2787
                               7:00 a.m. – 4:00 p.m. (EST)
                               After hours, please leave a message.


                               Submit:
                               Online Form
                               www.nrc.gov
                               Click on Inspector General
                               Click on OIG Hotline



                               Write:
                               U.S. Nuclear Regulatory Commission
                               Office of the Inspector General
                               Hotline Program, MS O5 E13
                               11555 Rockville Pike
                               Rockville, MD 20852-2738


NUREG-1415, Vol. 26, No. 2
April 2013
OIG VISION                                                           OIG STRATEGIC GOALS
“We are agents of positive change striving for continuous            1. S
                                                                         trengthen NRC’s efforts to protect public health and safety
improvement in our agency’s management and program operations.”         and the environment.
                                                                     2. E nhance NRC’s efforts to increase security in response to an
                                                                        evolving threat environment.
OIG MISSION
                                                                     3. I ncrease the economy, efficiency, and effectiveness with
NRC OIG’s mission is to (1) independently and objectively conduct       which NRC manages and exercises stewardship over its
and supervise audits and investigations relating to NRC’s programs      resources.
and operations; (2) prevent and detect fraud, waste, and abuse;
and (3) promote economy, efficiency, and effectiveness in NRC’s
programs and operations.




COVER PHOTOS:

Left: Technician above commercial irradiator.
Photo courtesy Nordion.

Middle: NRC Inspector at Calvert Cliffs Nuclear Power Station.

Right: Grand Gulf Nuclear Power Station.
Photo courtesy of Entergy Nuclear.
A Message From
the Inspector General
I am pleased to present this Semiannual Report to Congress on the activities and
accomplishments of the Nuclear Regulatory Commission (NRC) Office of the
Inspector General (OIG) from October 1, 2012, to March 31, 2013.

Our work reflects the legislative mandate of the Inspector General Act, which is
to identify and prevent fraud, waste, and abuse through the conduct of audits and investigations relating
to NRC programs and operations. The audits and investigations highlighted in this report demonstrate
our commitment to ensuring integrity and efficiency in NRC’s programs and operations.

NRC’s ability to effectively accomplish its safety and security mission is influenced by the effectiveness
of its corporate management programs in areas such as human resources, information technology, and
financial resources. One of our strategic goals is to increase the economy, efficiency, and effectiveness
with which NRC manages and exercises stewardship over its resources. In this edition of our Semiannual
Report, we highlighted our efforts in identifying and addressing the risks associated with the principal
corporate management areas of the NRC, such as information management security requirements,
financial statements, staff training, and social media.

During this semiannual reporting period, we issued the audit report on the fiscal year 2012 financial
statements of the NRC and issued 14 program and performance audit reports. As a result of this work,
OIG made a number of recommendations to improve the effective and efficient operation of NRC’s
safety, security, and corporate management programs. OIG also opened 26 investigations, and completed
24 cases. Nine of the open cases were referred to the Department of Justice, and 11 allegations were
referred to NRC management for action.

The NRC OIG remains committed to the integrity, efficiency, and effectiveness of NRC programs and
operations, and our audits, investigations, and other activities highlighted in this report demonstrate
this ongoing commitment. Those efforts were recently recognized with the granting of an Award for
Excellence by the Council of the Inspectors General on Integrity and Efficiency to an audit team for
its report on NRC’s oversight of Master Materials Licenses. My staff continuously strives to maintain
the highest possible standards of professionalism and quality in its audits and investigations. I would
like to acknowledge our auditors, investigators, and support staff for their superior work and ongoing
commitment to the mission of this office.

Finally, the success of the NRC OIG would not be possible without the collaborative efforts between my
staff and those of the agency to address OIG findings and to timely implement recommended corrective
actions. I thank them for their dedication and support, and I look forward to their continued cooperation
as we work together to ensure the integrity and efficiency of agency operations.




Hubert T. Bell
Inspector General


                                                                      October 1, 2012–March 31, 2013 — i
                                                             Wolf Creek nuclear power station.   Photo courtesy of Westar Energy



ii — NRC Office of the Inspector General Semiannual Report to Congress
Contents
Highlights  .               .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . v

	Audits  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . v

	Investigations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . vii

Overview of NRC and OIG                                         .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1

	     NRC’s Mission .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1

	     OIG History, Mission, and Goals .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  2

		          OIG History .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 2

		          OIG Mission and Goals  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 3

OIG Programs and Activities  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 4
	     Audit Program  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 4

	     Investigative Program .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  5

	     OIG General Counsel Regulatory Review .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  6

	     Other OIG Activities  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  8

Management and Performance Challenges  .                                                          .  .  .  .  .  .  .  .  . 11

Audits  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .           .  .  .  .  .  .  .  .  . 12

	     Audit Summaries  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 12

	     Audits in Progress .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 25

Investigations  .                 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 34

	     Investigative Case Summaries .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 34

Summary of OIG Accomplishments                                                     .  .  .  .  .  .  .  .  .  .  .  .  .  . 41

	     Investigative Statistics .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 41

	     Audit Listings .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 43

	     Audit Resolution Activities .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 45

Abbreviations and Acronyms  .                                      .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 49

Reporting Requirements  .  .  .  .                                 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 50

Appendix  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .              .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 51



                                                                                                         October 1, 2012–March 31, 2013 — iii
                                                Indian Point nuclear power station.   Photo courtesy of Entergy Nuclear Generation Co.



iv — NRC Office of the Inspector General Semiannual Report to Congress
Highlights
The following two sections highlight selected audits and investigations completed during this
reporting period. More detailed summaries appear in subsequent sections of this report.

Audits
•	 The Reports Consolidation Act of 2000 requires Federal agency Inspectors
   General to annually summarize what they consider to be the most serious
   management and performance challenges facing their agency and to assess
   the agency’s progress in addressing those challenges. In accordance with the
   act, the Inspector General (IG) at NRC updated what he considers to be the
   most serious management and performance challenges facing NRC. The IG
   considered the overall work of OIG, the OIG staff’s general knowledge of
   agency operations, and other relevant information to develop and update his list
   of management and performance challenges and assess the agency’s progress in
   addressing the challenges. OIG staff also sought input from NRC’s Chairman,
   Commissioners, and management to obtain their views on the challenges and
   agency efforts to address previously identified management and performance
   challenges.

•	 The Omnibus Budget Reconciliation Act of 1990 (OBRA-90), as amended,
   requires that NRC recover, through fees assessed to its applicants and licensees,
   approximately 90 percent of its budget authority. NRC assesses two types of
   fees to meet the requirements of OBRA-90 : user fees and annual fees. User fees
   recover NRC’s costs of providing special benefits to identifiable applicants and
   licensees. Annual fees recover generic regulatory costs not recovered through
   user fees. The audit objective was to determine if NRC has established and
   implemented management controls to ensure that the license fee calculation
   process produces timely and accurate fees in accordance with applicable
   requirements.

•	 The Federal Information Security Management Act (FISMA) of 2002 outlines
   the information security management requirements for agencies, which include
   an annual independent evaluation of an agency’s information security program
   and practices to determine their effectiveness. This evaluation includes testing
   the effectiveness of information security policies, procedures, and practices for
   a representative subset of the agency’s information systems. The evaluation
   also includes an assessment of compliance with FISMA requirements and
   related information security policies, procedures, standards, and guidelines.
   FISMA requires the annual evaluation to be performed by the agency’s OIG.
   The evaluation objective was to perform an independent evaluation of NRC’s
   implementation of FISMA for FY 2012.

•	 The Chief Financial Officers Act of 1990, as amended, requires the Inspector
   General or an independent external auditor to annually audit NRC’s financial
   statements to determine whether the agency’s financial statements are free of
   material misstatement. The audit includes examining, on a test basis, evidence
   supporting the amounts and disclosures in the financial statements. It also


                                                                            October 1, 2012–March 31, 2013 — v
                          includes assessing the accounting principles used and significant estimates made
                          by management as well as evaluating the overall financial statement presentation.
                          In addition, the audit evaluated the effectiveness of internal controls over
                          financial reporting and the agency’s compliance with laws and regulations.

                     •	 NRC has four regional offices that conduct inspection, enforcement,
                        investigation, licensing, and emergency response programs for nuclear reactors,
                        fuel facilities, and materials licensees. In addition, NRC’s Technical Training
                        Center (TTC) provides training for NRC staff in various technical disciplines
                        associated with the regulation of nuclear materials and facilities. Office of
                        Management and Budget. OMB Circular A-130 requires agencies to implement
                        and maintain an Information Technology (IT) security program, including the
                        preparation of policies, standards, and procedures. The regional and TTC
                        information security risk evaluation objectives were to conduct information
                        security risk evaluations of NRC’s IT security program, policies, and practices
                        as implemented at Region I (King of Prussia, PA), Region IV (Arlington, TX),
                        and TTC (Chattanooga, TN), and evaluate the effectiveness of agency security
                        control techniques as implemented at these locations.

                     •	 On January 21, 2009, President Obama issued a memorandum to the heads of
                        executive agencies that outlined guidance for use of social media to promote
                        greater openness in Government. In January 2011, NRC launched its first
                        official social media site with the release of the NRC blog. NRC followed the
                        launch of its blog with the launch of a Twitter account (August 2011), YouTube
                        channel (September 2011), and Flickr presence (January 2012). The evaluation
                        assessed how NRC uses social media, the effectiveness and efficiency of NRC’s
                        use of social media, and whether there are any privacy and security vulnerabilities
                        associated with its use.

                     •	 In December 2010, the Federal Chief Information Officer promulgated the
                        “25 Point Implementation Plan to Reform Federal Information Technology
                        Management” (25-Point Plan). The 25-Point Plan tasked agencies, including
                        NRC, with undertaking specific management reforms and policy changes within
                        6-, 12-, and 18-month timeframes. NRC—by itself or in conjunction with other
                        Federal agencies and the Office of Management and Budget—was responsible
                        for carrying out 10 action items. The audit objective was to evaluate NRC’s
                        progress in carrying out the 25-Point Plan.

                     •	 NRC’s workforce is responsible for overseeing licensee performance and needs
                        to be properly trained to carry out this important safety function. NRC’s
                        Training and Development Strategic Plan states that the agency conducts training
                        programs in accordance with the five elements of the systems approach to
                        training (Analysis, Design, Development, Implementation, and Evaluation). The
                        systems approach model describes a structured methodology to help ensure
                        that training investments achieve desired performance outcomes. The Office of
                        Personnel Management provides direction and guidance on identifying training
                        needs through training assessments. A training needs assessment is the process



vi — NRC Office of the Inspector General Semiannual Report to Congress
    of identifying the “gap” between performance required and current performance.
    The audit objective was to determine if NRC’s process for identifying safety
    training needs efficiently and effectively prepares staff to perform oversight
    activities to assure protection of public health and safety and the environment.

•	 OIG engaged an independent contractor to conduct a fifth, periodic survey
   of NRC’s workforce to assess the agency’s safety culture and climate. A
   clear understanding of NRC’s current safety culture and climate facilitates
   identification of agency strengths and opportunities as it continues to
   experience significant challenges. These challenges include the licensing of new
   nuclear facilities, disposal of high-level waste, the loss of valuable experience
   from retirements, and operating under continuing resolutions, smaller budgets,
   and legislation that froze Federal civilian employee pay rates. The survey
   objectives were to measure NRC’s safety culture and climate to identify areas of
   strength and opportunities for improvement, compare the results of this survey
   against the survey results that OIG reported previously, and provide, where
   practical, comparative data against other organizations for the qualitative and
   quantitative findings.




Investigations
•	 OIG completed an investigation into an allegation that a major U.S. university
   performing contract work for NRC improperly billed the agency, through the
   professor serving as Principal Investigator (PI) for the contract, for work under
   the contract and failed to provide adequate deliverables and a final deliverable.
   OIG initiated this review based on reports that the PI was under Federal
   investigation for submitting fraudulent contract proposals, theft of Federal funds,
   and money laundering in connection with the PI’s research activities outside of
   the university.

•	 OIG completed an investigation into an allegation from a private citizen that
   he received an e-mail from an AOL Inc. e-mail account to his personal e-mail
   account containing a malicious software program (i.e., malware) purporting to be
   from the NRC OIG. The e-mail subject line stated that a report from OIG had
   been completed and was attached to the e-mail.

•	 OIG completed an investigation into an anonymous allegation that questioned
   NRC’s Open, Collaborative Work Environment and Differing Professional
   Opinion process. The anonymous alleger indicated that the process sounded fair,
   “but when the rubber meets the road, the programs fall apart.” The alleger did
   not provide any specific examples to support the allegation.

•	 OIG completed an investigation based on a letter that was sent to the office of
   U.S. Representative Darrell Issa (R-CA) by a former nuclear power industry
   employee who alleged that the NRC Office of Investigations did not address his



                                                                   October 1, 2012–March 31, 2013 — vii
                          concern of retaliation by San Onofre Nuclear Generating Station management
                          for allegedly lowering his performance appraisal because the former employee
                          refused to alter cause evaluation reports.

                      •	 OIG completed an investigation into an allegation that the NRC Office of
                         Federal and State Materials and Environmental Programs (FSME) had, in official
                         correspondence, materially mischaracterized positions taken by the Colorado
                         Department of Public Health and the Environment, the State level nuclear
                         regulator in the Agreement State of Colorado. The FSME correspondence at
                         issue was distributed to the media and allegedly had the potential to interfere
                         with ongoing litigation in Colorado State court regarding a recently licensed
                         uranium mill.

                      •	 OIG completed an investigation into an anonymous allegation that an NRC
                         Commissioner raised his voice during a one-on-one interaction with an NRC
                         office director in the director’s office, and forcibly shut the director’s office door.
                         It was further alleged that the Commissioner attempted to physically intimidate
                         the director. This incident was allegedly overheard by others on the office
                         director’s staff. OIG interviews concerning this allegation disclosed the names
                         of two additional office directors who may have had intimidating interactions
                         with the Commissioner. OIG interviewed the two office directors to determine
                         whether such interactions occurred.




viii — NRC Office of the Inspector General Semiannual Report to Congress
Overview of NRC and OIG
NRC’s Mission
NRC was formed in 1975, in accordance with the Energy Reorganization Act of
1974, to regulate the various commercial and institutional uses of nuclear materials.
The agency succeeded the Atomic Energy Commission, which previously had
responsibility for both developing and regulating nuclear activities.

NRC’s mission is to regulate the Nation’s civilian use of byproduct, source, and
special nuclear materials to ensure adequate protection of public health and safety,
promote the common defense and security, and protect the environment. NRC’s
regulatory mission covers three main areas:

•	 R
    eactors—Commercial reactors that generate
   electric power and research and test reactors used
   for research, testing, and training.

•	 Materials—Uses of nuclear materials in medical,
    industrial, and academic settings and facilities that
    produce nuclear fuel.

•	 Waste—Transportation, storage, and disposal of
    nuclear materials and waste, and decommissioning of
    nuclear facilities from service.

Under its responsibility to protect public health and safety, NRC has three principal
regulatory functions: (1) establish standards and regulations, (2) issue licenses for
nuclear facilities and users of nuclear materials, and (3) inspect facilities and users
of nuclear materials to ensure compliance with the requirements. These regulatory
functions relate both to nuclear power plants and other uses of nuclear materials—
like nuclear medicine programs at hospitals, academic activities at educational
institutions, research, and such industrial applications as gauges and testing
equipment.

NRC maintains a current Web site and a public document room at its headquarters
in Rockville, Maryland; holds public hearings and public meetings in local areas and
at NRC offices; and engages discussions with individuals and organizations.

	




                                                                       October 1, 2012–March 31, 2013 — 1
                     OIG History, Mission, and Goals
                     OIG History
                     In the 1970s, Government scandals, oil shortages, and stories of corruption covered
                     by newspapers, television, and radio stations took a toll on the American public’s
                     faith in its Government. The U.S. Congress knew it had to take action to restore
                     the public’s trust. It had to increase oversight of Federal programs and operations.
                     It had to create a mechanism to evaluate the effectiveness of Government programs.
                     And, it had to provide an independent voice for economy, efficiency, and effectiveness
                     within the Federal Government that would earn and maintain the trust of the
                     American people.

                     In response, Congress passed the landmark legislation known as the Inspector
                     General Act (IG Act), which President Jimmy Carter signed into law in 1978. The
                     IG Act created independent Inspectors General, who would protect the integrity
                     of Government; improve program efficiency and effectiveness; prevent and detect
                     fraud, waste, and abuse in Federal agencies; and keep agency heads, Congress, and
                     the American people fully and currently informed of the findings of IG work.

                     Today, the IG concept is a proven success. The IGs continue to deliver significant
                     benefits to our Nation. Thanks to IG audits and investigations, billions of dollars
                     have been returned to the Federal Government or have been better spent based
                     on recommendations identified through those audits and investigations. IG
                     investigations have also contributed to the prosecution of thousands of wrongdoers.
                     In addition, the IG concepts of good governance, accountability, and monetary
                     recovery encourage foreign governments to seek advice from IGs, with the goal of
                     replicating the basic IG principles in their own governments.




2 — NRC Office of the Inspector General Semiannual Report to Congress
OIG Mission and Goals
NRC’s OIG was established as a statutory entity on April 15, 1989, in accordance
with the 1988 amendment to the IG Act. NRC OIG’s mission is to (1)
independently and objectively conduct and supervise audits and investigations
relating to NRC programs and operations; (2) prevent and detect fraud, waste, and
abuse; and (3) promote economy, efficiency, and effectiveness in NRC programs and
operations.

OIG is committed to ensuring the integrity of NRC programs and operations.
Developing an effective planning strategy is a critical aspect of accomplishing this
commitment. Such planning ensures that audit and investigative resources are used
effectively. To that end, OIG developed a Strategic Plan1 that includes the major
challenges and critical risk areas facing NRC.

The plan identifies OIG’s priorities and establishes a shared set of expectations
regarding the goals OIG expects to achieve and the strategies that will be employed
to do so. OIG’s Strategic Plan features three goals, which generally align with NRC’s
mission and goals:

1.	 S
     trengthen NRC’s efforts to protect public health and safety and the
    environment.

2.	 E
     nhance NRC’s efforts to increase security in response to an evolving
    threat environment.

3.	 I ncrease the economy, efficiency, and effectiveness with which NRC
     manages and exercises stewardship over its resources.




1
    OIG’s current Strategic Plan covers the period FY 2008 through FY 2013.




                                                                              October 1, 2012–March 31, 2013 — 3
OIG Programs and Activities
                     Audit Program
                     The OIG Audit Program focuses on management and financial operations;
                     economy or efficiency with which an organization, program, or function is
                     managed; and whether the programs achieve intended results. OIG auditors
                     assess the degree to which an organization complies with laws, regulations, and
                     internal policies in carrying out programs, and they test program effectiveness as
                     well as the accuracy and reliability of financial statements. The overall objective
                     of an audit is to identify ways to enhance agency operations and promote greater
                     economy and efficiency. Audits comprise four phases:

                     •	 Survey
                             phase—An initial phase of the audit process is used to gather
                        information, without detailed verification, on the agency’s organization,
                        programs, activities, and functions. An assessment of vulnerable areas
                        determines whether further review is needed.

                     •	 V
                         erification phase—Detailed information is obtained to verify findings and
                        support conclusions and recommendations.

                     •	 R
                         eporting phase—The auditors present the information, findings,
                        conclusions, and recommendations that are supported by the evidence
                        gathered during the survey and verification phases. Exit conferences are held
                        with management officials to obtain their views on issues in the draft audit
                        report. Comments from the exit conferences are presented in the published
                        audit report, as appropriate. Formal written comments are included in their
                        entirety as an appendix in the published audit report.

                     •	 R
                         esolution phase—Positive change results from the resolution process
                        in which management takes action to improve operations based on the
                        recommendations in the published audit report. Management actions
                        are monitored until final action is taken on all recommendations. When
                        management and OIG cannot agree on the actions needed to correct a
                        problem identified in an audit report, the issue can be taken to the NRC
                        Chairman for resolution.

                     Each September, OIG issues an Annual Plan that summarizes the audits planned
                     for the coming fiscal year. Unanticipated high-priority issues may arise that
                     generate audits not listed in the Annual Plan. OIG audit staff continually
                     monitor specific issues areas to strengthen OIG’s internal coordination and
                     overall planning process. Under the OIG Issue Area Monitor (IAM) program,
                     staff designated as IAMs are assigned responsibility for keeping abreast of major
                     agency programs and activities. The broad IAM areas address nuclear reactors,
                     nuclear materials, nuclear waste, international programs, security, information
                     management, and financial management and administrative programs.




4 — NRC Office of the Inspector General Semiannual Report to Congress
Investigative Program
OIG’s responsibility for detecting and preventing fraud, waste, and abuse within
NRC includes investigating possible violations of criminal statutes relating to NRC
programs and activities, investigating alleged misconduct by NRC employees,
interfacing with the Department of Justice on OIG-related criminal matters, and
coordinating investigations and other OIG initiatives with Federal, State, and local
investigative agencies and other OIGs. Investigations may be initiated as a result of
allegations or referrals from private citizens; licensee employees; NRC employees;
Congress; other Federal, State, and local law enforcement agencies; OIG audits; the
OIG Hotline; and OIG initiatives directed at areas bearing a high potential for fraud,
waste, and abuse.

Because NRC’s mission is to protect the health and safety of the public, OIG’s
Investigative Program directs much of its resources and attention to investigations of
alleged conduct by NRC staff that could adversely impact matters related to health
and safety. These investigations may address allegations of:

•	 M
    isconduct by high-ranking NRC officials and other NRC officials, such as
   managers and inspectors, whose positions directly impact public health and safety.

•	 F
    ailure by NRC management to ensure that health and safety matters are
   appropriately addressed.

•	 F
    ailure by NRC to appropriately transact nuclear regulation publicly and candidly
   and to openly seek and consider the public’s input during the regulatory process.

•	 C
    onflicts of interest involving NRC employees and NRC contractors and
   licensees, including such matters as promises of future employment for favorable
   or inappropriate treatment and the acceptance of gratuities.

•	 F
    raud in the NRC procurement program involving contractors violating
   Government contracting laws and rules.

OIG has also implemented a series of proactive initiatives designed to identify
specific high-risk areas that are most vulnerable to fraud, waste, and abuse. A primary
focus is electronic-related fraud in the business environment. OIG is committed to
improving the security of this constantly changing electronic business environment by
investigating unauthorized intrusions and computer-related fraud, and by conducting
computer forensic examinations. Other proactive initiatives focus on determining
instances of procurement fraud, theft of property, Government credit card abuse, and
fraud in Federal programs.

	




                                                                      October 1, 2012–March 31, 2013 — 5
                     OIG General Counsel Regulatory Review
                     Regulatory Review
                     Pursuant to the Inspector General Act, 5 U.S.C. App. 3, Section 4(a)(2), OIG reviews
                     existing and proposed legislation, regulations, policy, and implementing Management
                     Directives (MD), and makes recommendations to the agency concerning their impact
                     on the economy and efficiency of agency programs and operations.

                     Regulatory review is intended to provide assistance and guidance to the agency
                     prior to the concurrence process so as to avoid formal implementation of potentially
                     flawed documents. OIG does not concur or object to the agency actions reflected in
                     the regulatory documents, but rather offers comments and requests responsive action
                     within specified timeframes.

                     Comments provided in regulatory review reflect an objective analysis of the language
                     of proposed agency statutes, directives, regulations, and policies resulting from OIG
                     insights from audits, investigations, and historical data and experience with agency
                     programs. OIG’s review is structured so as to identify vulnerabilities and offer
                     additional or alternative choices.

                     From October 1, 2012, through March 31, 2013, OIG reviewed agency documents,
                     including Commission papers (SECYs), Staff Requirements Memoranda, Federal
                     Register Notices, regulatory actions, and statutes.

                     To effectively track the agency’s response to OIG regulatory review, comments
                     include a request for written replies within 90 days, with either a substantive reply or
                     status of issues raised by OIG.

                     The focus of many OIG comments is to assure that the independent authority of
                     the Inspector General under the IG Act is correctly reflected in agency directives.
                     An example of how this is accomplished is illustrated in two commentaries provided
                     during this reporting period:

                     •	 M
                         anagement Directive 8.2, Nuclear Regulatory Commission (NRC) Incident Response
                        Program, and Management Directive 8.3, NRC Incident Investigation Program,
                        describe program activities where the IG may have an interest in assigning OIG
                        staff to participate as observers. As a result, suggestions were provided for each
                        of these drafts for inclusion of provisions stating that at the discretion of the IG,
                        OIG staff could be assigned to participate as observers.

                      dditionally, during this period, comments were provided on the following
                     A
                     MD revisions:

                     •	 T
                         he revised MD 11.1, NRC Acquisition of Supplies and Services, was
                        generally well constructed and comprehensive. However, OIG review
                        found that despite prior findings in OIG audit reports (OIG-12-A-02 and



6 — NRC Office of the Inspector General Semiannual Report to Congress
    OIG-A-18) identifying lack of coordination and communication between the
    NRC Division of Contracts and agency project officers, previously provided
    flowcharts that contained helpful guidance in these areas had been eliminated
    in this directive update. Another area of concern was that the topics of
    suspension and debarment were not addressed, except to identify the Suspension and
    Debarment Official. OIG also noted that the NRC Enterprise Acquisition Tool is
    referenced in the MD but has not been implemented and therefore it appeared to be
    premature to reference it in the MD. We also commented on an outdated cite of
    the Brooks Act, which had been repealed, and suggested provision of Uniform
    Resource Locators (URL) for cited systems.

•	 M
    D 10.50, Pension Offset Waivers. OIG’s review found that the revision
   adequately addressed this topic. However, OIG suggested that the agency
   substitute the term “proposed appointee” for “employee” throughout the
   directive and handbook. OIG provided additional comments clarifying that the
   OIG Human Resources Officer performs the personnel functions for proposed
   appointees within OIG, and that the Approving Official is the IG for pension
   offset waivers for proposed appointees within the OIG and the Requesting
   Official for these actions is the Deputy Inspector General.

•	 M
    D 10.130, Safety and Occupational Health Program. OIG reviewed this revision
   and found it to be well structured and comprehensive. Comments on this draft
   MD were limited to citation corrections and editorial suggestions.

•	 M
    D 4.3, Financial Management Systems. OIG reviewed the revision and provided
   comments related to updated terminology and minor clarifications.

•	 M
    D 5.4, Official Representation Expenses. OIG’s comments focused on
   clarification as to roles and responsibilities, suggesting precise identification
   of the individual responsible for specific actions and oversight and required
   timeframes for notifications.




                                                                        October 1, 2012–March 31, 2013 — 7
                            Other OIG Activities
                            NRC OIG Receives CIGIE Award for Excellence
                                                                                                In October 2012, the Council of the
                                                                                                Inspectors General on Integrity and
                                                                                                Efficiency (CIGIE) recognized an
                                                                                                OIG audit team with the prestigious
                                                                                                CIGIE Award for Excellence in Audit.
                                                                                                The audit team was recognized for
                                                                                                exceptional performance in identifying
                                                                                                ways to improve the NRC’s oversight
                                                                                                of Master Materials Licenses. The
                                                                                                team consisted of Sherri Miotla,
                                                                                                Team Leader; Michael Zeitler, Audit
                                                                                                Manager; Kevin Nietmann, Senior
                                                                                                Technical Advisor; Levar Cole, Senior
                                                                                                Management Analyst; Amy Hardin,
                                                                                                Auditor; and Dana Furstenau,
                                                                                                Management Analyst.
OIG receives CIGIE Award for Excellence. Pictured left to right are Hubert T. Bell, Inspector
                                                                                NRC’s mission is to regulate
General; Sherri A. Miotla, Team Leader; Stephen D. Dingbaum, Assistant Inspector General
for Audits; Kevin J. Nietmann, Technical Advisor; Michael S. Zeitler, Audit Manager;
                                                                                the Nation’s civilian use of
Levar S. Cole, Senior Management Analyst; David C. Lee, Deputy Inspector General;
                                                                                byproduct, source, and special
Amy L. Hardin, Auditor; and Steven E. Zane, Deputy Assistant Inspector General for Audits.
Not pictured: Dana K. Furstenau, Management Analyst.	                           nuclear materials to ensure
Source: NRC
                                                                                adequate protection of public
                            health and safety, promote the common defense and security, and protect the
                            environment. NRC regulates medical, industrial, and academic uses of nuclear
                            materials through a combination of regulatory requirements, including licensing,
                            inspection, and enforcement. NRC also issues Master Materials Licenses (MML) to
                            other Federal agencies authorizing use of material at multiple sites that fall under the
                            jurisdiction of the other agencies. The MML allows the Federal agency to conduct
                            some activities as a regulator, such as issuing permits for radioactive materials use,
                            conducting inspections, handling allegations, following up on incidents and events,
                            and taking enforcement actions. NRC, in turn, provides oversight of MML licensees
                            through various means.

                            As of April 2011, NRC had issued MMLs to three Federal agencies: the Department
                            of the Air Force, the Department of the Navy, and the Department of Veterans
                            Affairs. The three MML licensee organizations vary based on the numbers and types
                            of permits they each issue. The Air Force primarily issues permits for chemical agent
                            monitors and detectors, nuclear medicine, waste disposal, and decommissioning.
                            The Navy primarily issues permits for radiography, nuclear medicine, research and
                            development, and decommissioning. Veterans Affairs primarily issues permits for
                            nuclear medicine.




8 — NRC Office of the Inspector General Semiannual Report to Congress
The effectiveness of NRC’s oversight of MMLs was brought into question in the
aftermath of the reported misadministration of treatments to a large number of
patients at a Department of Veterans Affairs hospital in Pennsylvania. As such,
OIG initiated an audit to determine whether NRC’s oversight of MML licensees
adequately protects public health and safety and the environment. The audit
focused on reviewing the oversight of the MMLs through documentation reviews,
observation of the NRC oversight activities, and interviews with NRC and MML
licensee management and staff involved in MML oversight.

The audit team found that while NRC made some improvements to its oversight of
MML licensees, opportunities exist for the agency to further strengthen its oversight
of this unique type of materials licensee. Specifically, the audit team found the
following:

• NRC Could Improve Guidance for NRC Staff Providing Technical
   Assistance and Training to MML Licensees. Through interviews with NRC
   and MML staff and document reviews, the audit team found that MML licensees
   have difficulty obtaining support they need to successfully implement their
   programs. Letters of Understanding state that NRC will provide guidance and
   assistance in areas pertinent to the administration of the MML license, including
   technical assistance and training where NRC has special capabilities. NRC
   management has not provided adequate guidance or a consistent process for
   supporting MML licensee staff. For example, MML licensees often do not receive
   timely or clear responses to their requests for technical assistance. Additionally,
   MML licensees have difficulty getting into NRC-sponsored training courses.
   Without this support, MML licensee staff may lack the knowledge and skills
   necessary to effectively implement their oversight programs and, consequently,
   may not adequately protect public health and safety and the environment.

• Guidance on Selection of MML Permittees for Inspection Could Be
   Improved. To determine the scope of NRC’s independent inspections, the
   audit team reviewed 220 NRC inspection reports from independent inspections
   conducted of MML permittees between 2000 and 2010. OIG also accompanied
   NRC inspectors on two independent inspections of MML permittees. The
   audit team found that NRC’s selection of MML permittees for independent
   inspection varies. NRC monitors MML licensees’ performance primarily through
   independent inspections of MML permittees, and NRC principles regarding
   regulatory transparency and predictability should guide these monitoring actions.
   However, selection of MML permittees is shaped by wide-ranging interpretations
   of the guidance for MML licensee oversight, which directs NRC staff to select a
   “sufficient number” and to choose a “representative sample” of MML permittees to
   adequately monitor MML licensee and permittee performance. Regional variation
   in selecting MML permittees for inspection is a result of unclear and vague
   guidance. Without a clear definition of inspection parameters, MML permittee
   inspections are at risk of becoming a lower priority than deadline-driven activities.
   The result of fewer inspections, or no inspections, could be detrimental to the
   health and safety of workers and the public as well as the environment.


                                                                       October 1, 2012–March 31, 2013 — 9
                     • NRC Should Clarify MML Licensee Regulatory Oversight Roles,
                        Responsibilities, and Accountabilities. To better understand the MML
                        licensee roles, responsibilities, and accountabilities, the audit team observed two
                        biennial reviews of MML licensees conducted by NRC teams. The audit team
                        also observed quarterly meetings of the master radiation safety committees for
                        each of the MMLs. Through these observations and reviews of reports from past
                        reviews (from 1999 to 2011), the audit team found that NRC’s regulatory oversight
                        expectations for MML licensees are not being enforced. To ensure adequate
                        protection of public health and safety and the environment, NRC expects MML
                        licensees to perform regulatory oversight functions. However, these expectations
                        are not clearly defined or explicitly enumerated in NRC regulations, the MMLs,
                        the Letters of Understanding, or licensee “tie downs.” As a result, MML licensees
                        and NRC may have different understandings of MML licensee staff and the
                        master radiation safety committee accountabilities and regulatory oversight roles
                        and responsibilities. Consequently, MML licensees may not fully perform these
                        regulatory oversight functions in a manner NRC expects, which could result in
                        inadequate protection of public health, safety, and the environment.

                       The audit team made five comprehensive recommendations to help NRC improve
                       its oversight of MML licensees. NRC made no formal comments on the report
                       and agreed with the recommendations. The agency is currently implementing
                       corrective actions to improve its program for oversight of MMLs. NRC’s
                       improved oversight will affect the three Federal agencies that are already MML
                       licensees and any other Federal agencies that endeavor to become MML licensees
                       in the future.




10 — NRC Office of the Inspector General Semiannual Report to Congress
Management and
Performance Challenges
  Most Serious Management and Performance Challenges
       Facing the Nuclear Regulatory Commission
                 as of October 1, 2012*
                    (as identified by the Inspector General)
  Challenge 1	Management of regulatory processes to meet a changing environment in
               the oversight of nuclear materials.

  Challenge 2	Management of internal NRC security and oversight of licensee
               security programs.

  Challenge 3	Management of regulatory processes to meet a changing environment in
               the oversight of nuclear facilities.

  Challenge 4	Management of issues associated with the safe storage of high-level
               radioactive waste when there is no long-term disposal solutions.

  Challenge 5	 Management of information technology.

  Challenge 6	Administration of all aspects of financial management and procurement.

  Challenge 7	 Management of human capital.

*The most serious management and performance challenges are not ranked in any order
  of importance.




                                                                      October 1, 2012–March 31, 2013 — 11
Audits
                     To help the agency improve its effectiveness and efficiency during this period, OIG
                     completed 15 financial and performance audits or evaluations, 9 of which are
                     summarized here, that resulted in numerous recommendations to NRC management.
                     In addition, Defense Contract Audit Agency completed three contract audits for OIG.

                     Audit Summaries
                     Inspector General’s Assessment of the Most Serious
                     Management and Performance Challenges Facing NRC
                     OIG Strategic Goal: Corporate Management
                     The Reports Consolidation Act of 2000 requires Federal agency IGs to annually
                     summarize what they consider to be the most serious management and performance
                     challenges facing their agency and to assess the agency’s progress in addressing those
                     challenges.

                     In accordance with the act, the IG at NRC updated what he considers to be the most
                     serious management and performance challenges facing NRC. The IG considered
                     the overall work of OIG, the OIG staff’s general knowledge of agency operations,
                     and other relevant information to develop and update his list of management and
                     performance challenges and assess the agency’s progress in addressing the challenges.
                     In addition, OIG staff sought input from NRC’s Chairman, Commissioners, and
                     management to obtain their views on what challenges the agency is facing and
                     what efforts the agency has taken or are underway or planned to address previously
                     identified management and performance challenges.

                     Evaluation Results:
                     The IG identified seven challenges that he considers the most serious management and
                     performance challenges facing NRC. The challenges identify critical areas or difficult
                     tasks that warrant high-level management attention.

                     The following chart provides an overview of the seven most serious management and
                     performance challenges facing NRC as of October 1, 2012.




12 — NRC Office of the Inspector General Semiannual Report to Congress
  Most Serious Management and Performance Challenges
       Facing the Nuclear Regulatory Commission
                 as of October 1, 2012*
                    (as identified by the Inspector General)
  Challenge 1	Management of regulatory processes to meet a changing environment in
               the oversight of nuclear materials.

  Challenge 2	Management of internal NRC security and oversight of licensee security
               programs.

  Challenge 3	Management of regulatory processes to meet a changing environment in
               the oversight of nuclear facilities.

  Challenge 4	Management of issues associated with the safe storage of high-level
               radioactive waste when there is no long-term disposal solution.

  Challenge 5	 Management of information technology.

  Challenge 6	Administration of all aspects of financial management and procurement.

  Challenge 7	 Managment of human capital.

*The most serious management and performance challenges are not ranked in any order
 of importance.

(Addresses All Management and Performance Challenges)


Audit of NRC’s Process for Calculating License Fees
OIG Strategic Goal: Corporate Management
The Omnibus Budget Reconciliation Act of 1990 (OBRA-90), as amended, requires
that NRC recover, through fees assessed to its applicants and licensees, approximately
90 percent of its budget authority [less amounts appropriated for waste incidental
to reprocessing activities and amounts appropriated for generic homeland security
activities (“non-fee items”)].

NRC assesses two types of fees to meet the requirements of OBRA-90 – user fees
and annual fees. First, user fees, presented in Title 10, Code of Federal Regulations
(10 CFR), Part 170, under the authority of the Independent Offices Appropriation
Act of 1952, recover NRC’s costs of providing special benefits to identifiable
applicants and licensees. In FY 2012, the estimated 10 CFR Part 170 fees totaled
$345.2 million. Second, annual fees, presented in 10 CFR Part 171 under the




                                                                      October 1, 2012–March 31, 2013 — 13
                                                                  authority of OBRA-90, as amended, recover
 Total Budget Authority: $1,038.1 Million                         generic regulatory costs not recovered
                                                                  through 10 CFR Part 170 fees. In FY
                                                                  2012, the 10 CFR Part 171 fee collections
                                            Fee Recoverable       required totaled $555.8 million. The total
                                            ($909.5M)             amount of fees to recover in FY 2012 was
                                                                  $909.5 million (this includes the Part 170
                                            Fee Relief            and 171 fees as well as Part 171 billing
                                            ($101.1M)             adjustments).
                                            Non-Fee Items
                                            ($27.5M)              As noted in the pie chart, in FY 2012
                                                                  NRC’s budget authority was $1,038.1
                                                                  million, $101.1 million was fee relief, and
                                                                  non-fee items were $27.5 million.
Source: NRC
                     On an annual basis, NRC amends the licensing, inspection, and annual fees.
                     The NRC publishes the annual Fee Rule in the Federal Register.

                     The audit objective was to determine if NRC has established and implemented
                     management controls to ensure that the license fee calculation process produces
                     timely and accurate fees in accordance with applicable requirements.

                     Audit Results:
                     The agency has established and implemented management controls to ensure that the
                     license fee calculation process produces timely and accurate fees in accordance with
                     applicable requirements. However, we have identified the following opportunities to
                     further improve the license fee calculation process:

                     •	 P
                         repare and document an annual Fee Rule validation (budget vs. cost analysis)
                        and make adjustments as needed to the fee calculation process.

                     •	 D
                         ocument all steps performed in calculating the Fee Rule in the desk procedures
                        (Fee Handbook) to enable a new preparer to re-perform or complete the
                        calculation.

                     •	 P
                         repare and complete detailed quality control license fee calculation checklists
                        and document supervisory review and approval on the checklists.

                     (Addresses Management and Performance Challenge #6)




14 — NRC Office of the Inspector General Semiannual Report to Congress
Independent Evaluation of NRC’s Implementation of
Federal Information Security Management Act (FISMA)
for FY 2012
OIG Strategic Goal: Security
On December 17, 2002, the President signed the E-Government Act of 2002, which
included the Federal Information Security Management Act (FISMA) of 2002.2
FISMA outlines the information security management requirements for agencies,
which include an annual independent evaluation of an agency’s information security
program3 and practices to determine their effectiveness. This evaluation must include
testing the effectiveness of information security policies, procedures, and practices
for a representative subset of the agency’s information systems. The evaluation also
must include an assessment of compliance with FISMA requirements and related
information security policies, procedures, standards, and guidelines. FISMA requires
the annual evaluation to be performed by the agency’s OIG.

The evaluation objective was to perform an independent evaluation of NRC’s
implementation of FISMA for FY 2012.

Evaluation Results:
While the agency has continued to make improvements in its IT security program
and has made progress in implementing the recommendations resulting from previous
FISMA evaluations, this evaluation identified several weaknesses. Specifically:

•	 The NRC system inventory is not up-to-date.

•	 I nformation system component inventories at NRC remote locations are not
    up-to-date.

•	 Contingency planning for the NRC IT environment needs improvement.

(Addresses Management and Performance Challenges #2 and #5)




2
    The Federal Information Security Management Act of 2002 was enacted on December 17, 2002, as part of the
    E-Government Act of 2002 (Public Law 107-347) and replaces the Government Information Security Reform
    Act, which expired in November 2002.
3
    NRC uses the term “information security program” to describe its program for ensuring that various types of
    sensitive information are handled appropriately and are protected from unauthorized disclosure in accordance with
    pertinent laws, Executive orders, management directives, and applicable directives of other Federal agencies and
    organizations. For the purposes of FISMA, the agency uses the term information technology security program.



                                                                                             October 1, 2012–March 31, 2013 — 15
                     Results of the Audit of the United States Nuclear Regulatory
                     Commission’s Financial Statements for Fiscal Years 2012
                     and 2011
                     OIG Strategic Goal: Corporate Management
                     The Chief Financial Officers Act of 1990, as amended, requires the Inspector General
                     or an independent external auditor, as determined by the IG, to annually audit NRC’s
                     financial statements to determine whether the agency’s financial statements are free of
                     material misstatement. The audit for Fiscal Years 2012 and 2011, conducted by Clifton
                     Gunderson, LLP, under a contract with OIG, included examining, on a test basis,
                     evidence supporting the amounts and disclosures in the financial statements. It also
                     included assessing the accounting principles used and significant estimates made by
                     management as well as evaluating the overall financial statement presentation.

                     In addition, the audit evaluated the effectiveness of internal controls over financial
                     reporting and the agency’s compliance with laws and regulations.

                     Audit Results:
                     Financial Statements

                     The auditors expressed an unqualified opinion on the agency’s FY 2012 financial
                     statements.

                     Internal Controls

                     The auditors expressed an unqualified opinion on the agency’s internal controls.

                     Compliance with Laws and Regulations

                     The auditors found no reportable instances of noncompliance/no substantial
                     noncompliance.

                     (Addresses Management and Performance Challenge #6)




16 — NRC Office of the Inspector General Semiannual Report to Congress
Information Security Risk Evaluations of Region I (King of
Prussia, PA), Region IV (Arlington, TX), and the Technical
Training Center (Chattanooga, TN)
OIG Strategic Goal: Security
NRC has four regional offices that conduct inspection, enforcement, investigation,
licensing, and emergency response programs for nuclear reactors, fuel facilities, and
materials licensees. The regional offices are the agency’s front line in carrying out
its mission and implementing established agency policies and programs nationwide.
NRC’s Region I office oversees regulatory activities in the northeastern United
States and is located in King of Prussia, Pennsylvania. NRC’s Region IV office
oversees regulatory activities in the western and southern midwestern United States
and is located in Arlington, Texas. In addition, NRC’s Technical Training Center
(TTC) provides training for NRC staff in various technical disciplines associated
with the regulation of nuclear materials and facilities. Located in Chattanooga,
Tennessee, the TTC is part of NRC’s Office of the Chief Human Capital Officer.

OMB Circular A-130, Management of Federal Information Resources, Appendix III,
Security of Federal Automated Information Resources, requires agencies to implement and
maintain an IT security program, including the preparation of policies, standards,
and procedures. An effective IT security program is an important managerial
responsibility. Management establishes a positive climate by making computer
security a part of the information resources management process and providing
support for a viable IT security program.

The objectives of the regional and TTC information security risk evaluations were to:

•	 P
    erform independent information security risk evaluations of the NRC IT
   security program, policies, and practices as implemented at Region I, Region IV,
   and TTC.

•	 E
    valuate the effectiveness of agency security control techniques as implemented
   at Region I, Region IV, and TTC.

Evaluation Results:
Region I, Region IV, and TTC have made improvements in their implementation
of NRC’s IT security program and practices for NRC IT systems since the previous
evaluations in 2003, 2006, and 2009. All corrective actions from the previous
evaluations have been implemented. However, their IT security programs and practices
are not always consistent with NRC’s IT security program, as summarized below.

Region I IT Security Program. Some NRC-owned laptops do not have a
current authority to operate. As a result, Region I is not fully compliant with NRC
requirements for laptop systems. Regional IT security program procedures are
not kept up-to-date. As a result, steps or processes could be skipped or forgotten if
personnel responsible for a particular activity are unavailable. In addition, outdated

                                                                     October 1, 2012–March 31, 2013 — 17
                     procedures make it more difficult when training new personnel to handle a specific
                     activity.

                     Region IV Continuity of Operations and Recovery. Backup procedures are
                     inadequate. Specifically, backup procedures are not maintained and kept up-to-date
                     and backups of NRC-managed servers are not sent to an offsite storage location. As
                     a result, Region IV may not have reliable IT system backup information available if
                     there is a need for system or file recovery.

                     Region IV IT Security Program. Some NRC-owned laptops do not have a
                     current authority to operate. As a result, Region IV is not fully compliant with
                     NRC requirements for laptop systems. The Region IV physical security plan is not
                     up-to-date. As a result, steps or processes could be skipped or forgotten if personnel
                     responsible for a particular activity are unavailable. In addition, outdated procedures
                     make it more difficult when training new personnel to handle a specific activity.

                     TTC IT Security Program. Some NRC-owned laptops do not have a current
                     authority to operate. As a result, the TTC is not fully compliant with NRC
                     requirements for laptop systems.

                     (Addresses Management and Performance Challenges #2 and #5)



                     Evaluation of NRC’s Use and Security of Social Media
                     OIG Strategic Goal: Security
                     On January 21, 2009, President Obama issued a memorandum to the heads of
                     executive agencies that outlined guidance for use of social media to promote greater
                     openness in Government. In January 2011, NRC launched its first official social
                     media site with the release of the NRC blog. The timing of the blog launch proved
                     fortuitous as 3 months later, the Fukushima Daiichi nuclear accident in Japan
                     occurred and NRC realized the benefits of social media for increasing the speed and
                     reach of information dissemination. In the month following the accident, the blog
                     attracted 41,561 views. This remains the highest trafficked period across any NRC
                     social media platform to date.

                     NRC followed the launch of its blog with the launch of a Twitter account (August
                     2011), YouTube channel (September 2011), and Flickr presence (January 2012).
                     These four official channels served as the basis for this evaluation.

                     The objective of this evaluation was to determine how NRC uses social media, the
                     effectiveness and efficiency of NRC’s use of social media, and whether there are any
                     privacy and security vulnerabilities associated with its use.




18 — NRC Office of the Inspector General Semiannual Report to Congress
Evaluation Results:
                                                                     NRC Social Media Metrics
                                                                  Table 2: NRC Social Media Metrics (January 2011-September 2012)

Over the past 2 years, NRC has made significant                              Blog                       Twitter            YouTube          Flickr
                                                          Activity
progress with its social media program. This is
                                                                             238 posts                  603 tweets         55 videos        1060 images

                                                          Views              238,067 views since        n/a                18,390 views     90,206
particularly noteworthy considering the limited                              launch
                                                                             76,016 views in 2012
                                                                                                                           (350-400 daily
                                                                                                                           average)
                                                                                                                                            views


resources it has dedicated to the effort. It is           Comments           1,350 approved             (not applicable)   (directed to     (directed to
                                                                             comments                                      blog)            blog)
compliant with Federal social media policies and          Shares             1,054 total shares         135 retweets       2-3 embeds in    (not

regulations, it has developed a strategy and                                 Average comment rate                          Facebook and     applicable)
                                                                             per post: less than 10                        other personal
                                                                                                                           sites on
published guidance, and it has established and                               Average post likes: less
                                                                             than 5
                                                                                                                           average for
                                                                                                                           most videos

trained a cadre of bloggers from across the agency.                          Average Facebook
                                                                             shares: less than 5
                                                                             Average Twitter
                                                                             retweets: less than 5

The agency has also been very active in generating                           Blog content is shared
                                                                             primarily via:

frequent and informative content across its four                     Facebook: 479
                                                                     Twitter: 376

official social media platforms and has promoted          Followers  643 Followers                      2,430 Followers    189
                                                                                                                           Subscribers
                                                                                                                                            (not
                                                                                                                                            applicable)

these sites internally through brown bag lunches and Following       0                                  0                  0                0


postcards as well as externally through the NRC                                                                                             Source: NRC
Web site and at NRC meetings and events. Furthermore, NRC has generated
respectable subscription and viewership rates across its social media channels,
especially for a small Federal agency with a niche stakeholder community.

As a result of these efforts, NRC has met most of its stated social media
objectives including:

•	 Increasing the distribution speed of agency content.

•	 Applying NRC branding to social media tools and services.

•	 Establishing new information distribution channels.

•	 Enhancing access to agency content through multiple channels.

However, consistent with the fact that NRC is still in its early stages with its social
media program, there remain areas where the agency can enhance its efficiency and
effectiveness.

These areas include:   

•	 Integrating social media into existing policies, training, and practices.

•	 I mplementing more social media specific security, training, and awareness
    safeguards.

•	 Establishing a more prominent voice in the digital realm.

•	 M
    aximizing the potential of social media to enhance interaction with agency
   stakeholders and engage them in a dialogue on nuclear issues.

(Addresses Management and Performance Challenges #2 and #5)



                                                                               October 1, 2012–March 31, 2013 — 19
                            Audit of NRC’s Progress in Carrying Out the “25 Point
                            Implementation Plan to Reform Federal Information
                            Technology Management”
                            OIG Strategic Goal: Corporate Management
                                                                  NRC invests in a broad range of IT products
                                                                  and services to perform its mission. Some
                                                                  IT investments support business activities
                                                                  such as financial, administrative, and human
                                                                  resource management. Others support
                                                                  core regulatory activities related to nuclear
                                                                  security, reactor safety, and nuclear materials
                                                                  and waste safety. In addition, investments
                                                                  such as IT security and infrastructure services
                                                                  support activities across NRC’s organizational
                                                                  lines. Despite rapidly changing IT security
                                                                  threats and increased reliance on IT to
                                                                  accomplish the agency’s mission, NRC faces
New Data Center                                                   the Governmentwide challenge of declining
Construction in Progress.   budgets. For example, NRC spent $164.7 million on IT in FY 2011, but has
Source: NRC
                            budgeted $151.4 million for IT in FY 2013—a decline of approximately 8 percent.

                            In December 2010, the Federal Chief Information Officer (CIO), a representative
                            of the Office of Management and Budget (OMB), promulgated the “25 Point
                            Implementation Plan to Reform Federal Information Technology Management”
                            (25-Point Plan). The 25-Point Plan tasked agencies, including NRC, with
                            undertaking specific management reforms and policy changes within 6-, 12-, and
                            18-month timeframes. NRC—by itself or in conjunction with other Federal agencies
                            and OMB—was responsible for carrying out 10 action items.4

                            The audit objective was to evaluate NRC’s progress in carrying out the 25 Point Plan.

                            Audit Results:
                            Auditors determined that NRC met its obligations for the 10 action items for which
                            it was responsible, and developed the following findings to improve the agency’s
                            IT management in areas related to action items on Investment Review Boards, IT
                            acquisition cadres, and data center consolidation.



                            4
                                The 10 action items were (1) Complete detailed implementation plans to consolidate 800 data centers by 2015, (2)
                                Shift to a “Cloud First” policy, (3) Scale IT program management career path, (4) Design and develop a cadre
                                of specialized IT acquisition professionals, (5) Work with Congress to create IT budget models that align with
                                modular development, (6) Work with Congress to scale flexible IT budget models more broadly, (7) Work with
                                Congress to consolidate commodity IT spending under the agency CIO, (8) Reform and strengthen Investment
                                Review Boards, (9) Redefine the role of agency CIO and the Federal CIO Council, and (10) Roll out the
                                “TechStat” model at the bureau level.


20 — NRC Office of the Inspector General Semiannual Report to Congress
NRC Does Not Review Performance of Non-Major IT Investments, as
Defined by OMB

OMB has directed Federal agencies to apply the TechStat5 model to review
performance of IT investments. NRC has implemented TechStat, but uses it only
to review major IT investments as defined by OMB. NRC considers nine of its IT
systems as major investments, and these investments account for approximately 72
percent of NRC’s estimated $151.4 million FY 2013 IT budget. Subsequently, 23
non-major investments, which account for approximately 28 percent of the agency’s
spending, are not included in the agency’s TechStat reviews. NRC has not applied
the model to non-major IT investments, having focused instead on the major IT
investments, which are fewer in number and higher in total value than non-major
IT investments. Without reviewing non-major IT investments, NRC may miss
opportunities to improve performance and cost-effectiveness of these investments.

NRC Has Specialized IT Acquisition Professionals, but Has Not
Institutionalized Current Training and Retention Best Practices

OMB has directed Federal agencies to design and develop a cadre of specialized
IT acquisition professionals by providing specific training, on-the-job experience,
and mentoring. Although NRC has a branch of IT acquisition specialists who are
encouraged to pursue training in this field, NRC has not institutionalized current
training and retention best practices for these staff. This occurs because NRC’s 2012
acquisition human capital plan6 did not include details about staff training. Without
institutionalized best practices, NRC faces challenges in training and retaining
specialized IT acquisition professionals.

NRC Does Not Include All Data Centers in Consolidation Plans

Federal agencies are required to inventory their data center assets and develop data
center consolidation plans. However, NRC has limited its data center count to three
headquarters facilities, excluding data centers in its regional offices and TTC. This
has occurred because OMB has promulgated different definitions of “data center,”
and NRC has interpreted OMB guidance to exclude regional data centers. Without
a complete data center count, NRC may miss opportunities to identify potential cost
savings that could be realized through expanding its data center consolidation efforts.




5
    “TechStat” reviews are evidence-based evaluations designed to identify IT program weaknesses and develop plans
    for improvement. TechStat reviews can also help identify failed IT programs for early termination.
6
    Each Federal agency covered by the Chief Financial Officers Act is required to develop an annual Acquisition
    Human Capital Plan as a means to improve the strategic management of the agency’s acquisition workforce. A
    template developed by OMB’s Office of Federal Procurement Policy and the Federal Acquisition Institute is used to
    gather information about each agency’s acquisition workforce.



                                                                                              October 1, 2012–March 31, 2013 — 21
                     NRC Should Perform Alternatives Analysis for the Excess Capacity in the 	
                     New Data Center

                     The Three White Flint North data center was built with spare capacity that may not be
                     used. The new data center was built with infrastructure to accommodate up to 184 server
                     racks if needed, which includes additional electrical and cooling systems. NRC currently
                     plans to use 90 server racks, and is considering alternatives to in-house data hosting that
                     would eliminate the need to nearly double its physical server count. Emerging budget and
                     space usage constraints bear heavily on NRC‘s data center consolidation plans, so careful
                     analysis of alternatives to in-house data hosting will be particularly important in adopting
                     the most cost-effective solution to NRC’s data center needs.

                     (Addresses Management and Performance Challenge #5)



                     Audit of NRC’s Safety Training and Development for
                     Technical Staff
                     OIG Strategic Goal: Corporate Management
                                                       NRC licenses individuals and organizations to
              The ADDIE Model                          use radioactive materials and strives to ensure that
                                                       licensees perform at acceptable safety levels. NRC’s
                                                       workforce is responsible for overseeing licensee
                                                       performance and needs to be properly trained to carry
                                                       out this important safety function.

                                                        NRC’s Training and Development Strategic Plan
                                                        states that the agency conducts training programs
                                                        in accordance with the five elements of the systems
                                                        approach to training (Analysis, Design, Development,
                                                        Implementation, and Evaluation). The systems
                                                        approach model, known as ADDIE, is commonly used
Source: NRC
                     by many training organizations. The ADDIE model describes a structured methodology
                     to help ensure that training investments achieve desired performance outcomes. Well-
                     designed training and development programs are linked to goals and to the skills and
                     competencies needed for effective job performance. Identifying training program needs
                     is the first step to planning and implementing an effective training program.

                     The Office of Personnel Management provides direction and guidance on identifying
                     training needs through training assessments. A training needs assessment is
                     the process of identifying the “gap” between performance required and current
                     performance. An Occupational Training Needs Assessment examines the skills,
                     knowledge, and abilities required for affected occupational groups. Occupational
                     assessments identify how and which occupational gaps exist. The assessment also
                     examines new ways to perform work that can eliminate the gaps.



22 — NRC Office of the Inspector General Semiannual Report to Congress
The audit objective was to determine if NRC’s process for identifying safety training
needs efficiently and effectively prepares staff to perform oversight activities to assure
protection of public health and safety and the environment.

Audit Results:
NRC rarely conducts occupational training needs assessments for staff positions
responsible for performing safety oversight activities, and the existing needs assessments
are not formally reviewed on a defined basis.

Federal regulations require occupational training needs assessments; however, the agency
does not have defined procedures identifying when and how to perform new or review
existing occupational training needs assessments. Instead of performing these required
assessments, Office of the Chief Human Capital Officer (OCHCO) managers identify
training needs through dialogue with NRC program office management and staff. OCHCO
responds to training requests from program offices, rather than systematically performing
training needs assessments to identify the gaps between required and current performance.
By not conducting occupational needs assessments, NRC risks not identifying gaps in
knowledge, skills, and abilities and is unable to fully assure that its overall training process
efficiently and effectively prepares staff to perform safety oversight activities.

(Addresses Management and Performance Challenge #7)



2012 NRC Safety Culture and Climate Survey
OIG Strategic Goal: Corporate Management
OIG engaged an independent contractor, Towers Watson, to conduct a fifth, periodic
survey of NRC’s workforce to assess the agency’s safety culture and climate. A clear
understanding of NRC’s current safety culture and climate facilitates identification of
agency strengths and opportunities as it continues to experience significant challenges.
These challenges include the licensing of new nuclear facilities, disposal of high-level waste,
loss of valuable experience from retirements, operating under continuing resolutions,
smaller budgets, and legislation that froze Federal civilian employee pay rates. The survey
was administered from September 4 – September 28, 2012. Of 3,755 NRC full and part-
time agency employees, 2,981 completed the survey, for an overall return rate of 79 percent.

The survey objectives were to:

•	 M
    easure NRC’s safety culture and climate to identify areas of strength and
   opportunities for improvement.

•	 C
    ompare the results of this survey against the survey results that OIG reported
   previously.

•	 P
    rovide, where practical, comparative data against other organizations for the
   qualitative and quantitative findings.


                                                                         October 1, 2012–March 31, 2013 — 23
                     Survey Results:
                     While the 2012 NRC data continues to be more favorable than industry and national
                     norms, the overall trend is for less favorable results relative to the 2009 survey.

                     Overall Strengths To Maintain

                     •	 W
                         orkload and Support – Sufficient staff to handle the workload and
                        information needed to do my job.

                     •	 T
                         raining – Many feel training prepared them for their work and they have
                        sufficient knowledge of safety concepts.

                     •	 C
                         ommunication – Most understand how goals/objectives of their work fit into
                        NRC’s future, and understand objectives of NRC overall. Despite the strength
                        in communication overall, the survey reinforces a key point raised in 19 focus
                        group meetings held before the survey was administered: the need to improve
                        communication of why decisions were made.

                     Overall Opportunities for Improvement

                     •	 D
                         PO/Non-Concurrence – NRC is losing significant ground on negative reactions
                        when raising views different from senior management, supervisor, and peers.

                     •	 M
                         anagement – NRC is well below external benchmarks on recognizing and
                        respecting value of human differences.

                     •	 D
                         evelopment – Significant declines in recruiting/retaining the right people and
                        developing people to their full potential.

                     •	 P
                         erformance Management – Low and losing ground for effectiveness of
                        performance reviews.

                     •	 I mage – NRC has been aligned to the benchmarks in the past, but is now below
                         all three external benchmarks.

                     •	 S
                         enior Management – Less than half of respondents feel action has been taken
                        since the last survey—as many are neutral—which provides a good opportunity
                        for improvement.

                     •	 Q
                         uality Focus – There is a clear opportunity to impact the perception that
                        people sacrifice quality in order to meet metrics.

                     Results-to-Action workshops were held the week of January 8, 2013. The workshops
                     were designed to help agency managers analyze the survey results for their individual
                     organizations and develop appropriate action plans aimed at improving NRC’s safety
                     culture and climate.

                     (Addresses Management and Performance Challenge #7)


24 — NRC Office of the Inspector General Semiannual Report to Congress
Audits in Progress
Audit of NRC’s Budget Execution Process
OIG Strategic Goal: Corporate Management
The Federal budget execution process involves activities related to the use of funds
appropriated by Congress. This includes the detailed planning of the use of the
funds as well as the control of their use to assure that congressional intent for the
use of the funds is preserved. During this process, the NRC Chairman, Chief
Financial Officer, allottees, allowance holders, allowance financial managers, and
funds certifying officials all share responsibilities for ensuring effective financial
management concerning the proper administrative control of funds. NRC managers
must ensure that public funds are used only for authorized purposes, and that the
funds are used economically, efficiently, and within prescribed limits.

NRC guidance mandates that agency systems for budget execution and the
administrative control of funds adhere to policies, procedures, and standards found in
Management Directives (such as 4.2, Administrative Control of Funds); OMB Circular
A-34, “Instructions on Budget Execution;” as well as other applicable Federal laws
and regulations. The Office of the Chief Financial Officer is responsible for the
overall control of funds during budget execution.

NRC’s budget request for FY 2012 was approximately $1.038 billion and 3,981 full-
time equivalents.

The audit objectives are to determine whether (1) NRC maintains proper
financial control over the allotment, allocation, and obligation of appropriated and
apportioned funds to ensure compliance with applicable Federal laws, policies, and
regulations, and (2) opportunities exist to improve the budget execution process.

(Addresses Management and Performance Challenge #6)



Audit of NRC’s Travel Charge Card Program
OIG Strategic Goal: Corporate Management
NRC’s Travel Charge Card Program is part of the Governmentwide Commercial
Charge Card Program established to pay the official travel expenses of employees
while on temporary duty or other official business travel. The intent of the program
is to improve convenience for the traveler and to reduce the Government’s costs
of administering travel. OMB has issued guidance that establishes requirements
(including internal controls designed to minimize the risk of travel card misuse) and
suggested best practices for the Government travel card programs.




                                                                     October 1, 2012–March 31, 2013 — 25
                     During FY 2011, 2,613 NRC employees charged approximately $8.8 million on
                     travel charge cards, primarily issued to employees as individually billed accounts.
                     Travel cardholders are directly responsible for all charges incurred on their account.

                     The Office of the Chief Financial Officer administers NRC’s travel charge card
                     program and controls the use of agency funds to ensure that they are expended in
                     accordance with applicable laws and standards.

                     The audit objective is to assess whether NRC’s policies and procedures are effective
                     in preventing and detecting travel charge card misuse and delinquencies.

                     (Addresses Management and Performance Challenge #6)



                     Audit of NRC’s FY 2013 Financial Statements
                     OIG Strategic Goal: Corporate Management
                     Under the Chief Financial Officers Act and the Government Management and
                     Reform Act, the OIG is required to audit the financial statements of the NRC. OIG
                     will measure the agency’s improvements by assessing corrective action taken on prior
                     audit findings. The report on the audit of the agency’s financial statements is due on
                     November 15, 2013. In addition, the OIG will issue reports on:

                     •	 Special Purpose Financial Statements.

                     •	 Implementation of the Federal Managers’ Financial Integrity Act.

                     •	 Summary of Performance and Financial Information.

                     •	 A
                         gency compliance with the Improper Payments Elimination and Recovery Act
                        of 2010.

                     The audit objectives are to:

                     •	 Express opinions on the agency’s financial statements and internal controls.

                     •	 Review compliance with applicable laws and regulations.

                     •	 R
                         eview the controls in the NRC’s computer systems that are significant to the
                        financial statements.

                     •	 A
                         ssess the agency’s compliance with Office of Management and Budget Circular
                        A-123, Revised, “Management’s Responsibility for Internal Control.”

                     •	 A
                         ssess agency compliance with the Improper Payments Elimination and
                        Recovery Act of 2010.

                     (Addresses Management and Performance Challenge #6)


26 — NRC Office of the Inspector General Semiannual Report to Congress
Audit of NRC’s Implementation of Its NEPA
Responsibilities
OIG Strategic Goal: Safety
The National Environmental Policy Act of 1969 (NEPA) requires Federal agencies
to consider the environmental impacts of actions under their jurisdiction. NEPA
requires that an environmental impact statement (EIS) of the proposed action be
prepared for major Federal actions significantly affecting the quality of the human
environment. Consultations to ensure compliance with other statutory mandates,
such as Section 7 of the Endangered Species Act of 1973 and Section 106 of the
National Historic Preservation Act of 1966, are also part of the NEPA review process.

NEPA broadly impacts NRC. Several agency offices conduct environmental reviews.
A NEPA review may be initiated in response to a rulemaking, an application for
a new license or certification, a license amendment, or a decommissioning plan
submitted to the NRC. Generic EISs have been developed to guide staff in the
areas of nuclear plant licensing renewal, decommissioning of nuclear facilities, and
applications for in situ uranium recovery operations. Standard review plans support
staff environmental reviews in other areas. Growing public concern over licensing
issues such as reactor aging and spent fuel storage heightens the importance of the
criteria to determine the appropriate level and adequacy of environmental reviews.

The audit objective is to determine whether NRC implements its environmental
review and consultation responsibilities as prescribed by NEPA.

(Addresses Management and Performance Challenge #3)



Audit of NRC’s Compliance with 10 CFR 51 Relative to
Environmental Impact Statements
OIG Strategic Goal: Safety
NEPA directs that before Federal agencies make decisions, they must consider the
effects of their actions on the quality of the human environment. Section 102(2) of
NEPA requires that for a major Federal action significantly affecting the quality of
the human environment, Federal agencies must prepare an EIS, which is a detailed
statement on environmental impacts and effects and provides alternatives to the
action, and irreversible commitments of resources involved in the action.

10 CFR Part 51 contains NRC‘s regulations that implement section 102(2) of
NEPA. In Part 51, NRC has identified a number of licensing actions that require
the preparation of an EIS, including issuance of a permit to construct a nuclear
power reactor, a uranium recovery facility, or a fuel-cycle facility. Part 51 sets forth
regulations regarding the EIS process, including the stages of the process, public
involvement, contents of the EIS, and publication of the EIS.


                                                                       October 1, 2012–March 31, 2013 — 27
                     The audit objective is to determine whether NRC complies with the regulations in
                     10 CFR Part 51, relative to the preparation of Environmental Impact Statements.

                     (Addresses Management and Performance Challenges #1 and #3)



                     Audit of NRC’s Safeguards Local Area Network and
                     Electronic Safe System
                     OIG Strategic Goal: Corporate Management
                     NRC created a system for the electronic creation, transmission and storage of
                     Safeguards Information (SGI) documents, known as the Safeguards Local Area
                     Network and Electronic Safe (SLES). This system has two components: the
                     Safeguards Information Local Area Network (SGI LAN) and the Electronic Safe
                     (E-Safe). SGI LAN is a local area network with a secure architecture dedicated for
                     use in SGI data processing. E-Safe is a secure electronic data repository for SGI
                     records. SGI LAN provides access to E-Safe.

                     SLES provides a secure network for authorized users to access SGI documents
                     electronically, reduces the volume of SGI document storage space, implements a
                     secure SGI records repository in compliance with National Archives and Records
                     Administration requirements, and enables record and document management of SGI
                     in a centralized electronic document management system.

                     The minimum NRC security requirements cover the security-related areas for
                     protecting the confidentiality, integrity, and availability of Federal information
                     systems and the information processed, stored, and transmitted by those systems.
                     Starting on October 1, 2011, the Office of Information Services became the system
                     owner for SLES and assumed operations and maintenance responsibility for the
                     system.

                     The audit objective is to determine if SLES meets its operational capabilities and
                     applicable security controls.

                     (Addresses Management and Performance Challenge #5)




28 — NRC Office of the Inspector General Semiannual Report to Congress
Audit of NRC’s Oversight of Equipment Aging
OIG Strategic Goal: Safety
The U.S. fleet of commercial nuclear power plants is aging, with an average age of
more than 29 years. Additionally, approximately 90 percent of the 104 currently
operating plants have either received, are awaiting approval for, or intend to seek a
20-year license extension. This presents emergent challenges as previously unseen
equipment failures occur. Aging failures can affect major components such as unit
transformers, reactor coolant/recirculation pumps, and other large motors, and
present material challenges, such as the alloy 600 issue, and related equipment
degradation. Failures of these components can result in plant transients and
degraded safety equipment, both affecting nuclear safety.

The audit objective is to determine if NRC is providing effective oversight of
industry’s aging component programs.

(Addresses Management and Performance Challenge #3)



Audit of NRC’s Support for Resident Inspectors
OIG Strategic Goal: Safety
The core of the NRC inspection program for nuclear power plants and fuel-cycle
facilities is carried out by resident (onsite) inspectors. These inspectors provide an onsite
NRC presence for direct observation and verification of licensees’ ongoing activities.
Generally, the NRC regions manage resident inspector assignments, which include at
least two inspectors that are assigned to each site for a period of up to 7 years.

Resident inspector guidance stems from various sources. For example, for operating
reactors, Inspection Manual Chapter 1202, Senior Resident and Resident Inspector Site
Turnover, provides guidelines to ensure that resident inspectors new to a site have the
necessary knowledge and site familiarity to successfully implement the reactor oversight
process (including allegations and enforcement) and emergency response duties.

During the course of their assignment, the resident inspectors variously also require
additional types of support for such areas as telecommunications, human resources,
technical review, and legal counsel. Furthermore, the ability to communicate
effectively and efficiently with the regional offices, NRC headquarters, and other
resident inspectors is vitally important to their ability to meet the expectations of
NRC management and the public.

The audit objectives are to evaluate the effectiveness of NRC support provided to the
resident inspectors at nuclear power plants, fuel-cycle facilities, and construction sites.

(Addresses Management and Performance Challenge #3)


                                                                           October 1, 2012–March 31, 2013 — 29
                     Audit of NRC’s Implementation of the Reducing
                     Over-Classification Act
                     OIG Strategic Goal: Security
                     According to the President, protecting national security information and
                     demonstrating our commitment to open Government through the proper application
                     of classification standards are equally important and compatible priorities.

                     The 9/11 Commission concluded that over-classification and inadequate information
                     sharing contributed to the Government’s failure to prevent the attacks of 9/11. As
                     Commissioner Richard Ben-Veniste testified before Congress in 2005:

                         The Commission found, however, that the failure to share information
                         was the single most important reason why the United States government
                         failed to detect and disrupt the 9/11 plot. … Information has to flow more
                         freely. Much more information needs to be declassified. A great deal of
                         information should never be classified at all.

                     The Reducing Over-Classification Act (H.R. 553) takes specific action to implement
                     these lessons by establishing procedures to promote information sharing with State,
                     local, tribal, and private sector entities, and by providing training and incentives to
                     promote accurate classification of information by Federal employees.

                     Section 6 of H.R. 553 directs Federal IGs, in consultation with the National Archives
                     and Records Administration’s Information Security Oversight Office, to assess the
                     effectiveness of agency classification policies through at least two evaluations. The
                     first evaluation is to be completed by September 30, 2013, and the second evaluation
                     is to be completed by September 30, 2016.

                     The act requires each IG to: (1) submit a report on each evaluation to specified
                     congressional committees, the agency head, and the Director of the Information
                     Security Oversight Office, and (2) coordinate with other IGs and with the
                     Information Security Oversight Office to ensure that evaluations follow a consistent
                     methodology that allows for cross-agency comparisons.

                     The audit objectives are to (1) assess whether applicable classification policies,
                     procedures, rules, and regulations have been adopted, followed, and effectively
                     administered and (2) identify policies, procedures, rules, regulations, or management
                     practices that may be contributing to persistent misclassification of material.

                     (Addresses Management and Performance Challenge #2)




30 — NRC Office of the Inspector General Semiannual Report to Congress
Audit of NRC’s Process for Assessing Eligibility for
Continued Access Authorization
OIG Strategic Goal: Security
MD 12.3, NRC Personnel Security Program, establishes a personnel security program
to ensure that determinations are made in accordance with pertinent laws, executive
orders, management directives, and applicable directives of other Federal agencies
for an NRC access authorization. MD 12.3 gives managers the responsibility to
report any situation that could impact an employee’s trustworthiness. Further, the
MD outlines the individual employee’s responsibility to report information about
situations that arise between reinvestigations.

The audit objective is to determine if NRC has processes in place to ensure that
individuals comply with personnel reporting responsibilities for continued access
authorization eligibility.

(Addresses Management and Performance Challenge #2)



Audit of NRC’s Information Technology Governance
OIG Strategic Goal: Corporate Management
IT governance pertains to stewardship of IT resources in order to most efficiently
and effectively attain agency vision, mission, goals, and objectives.

NRC has two IT governance boards – the Information Technology/Information
Management Board (ITB) and the Information Technology/Information
Management Portfolio Executive Council (IPEC). The ITB is a review body
created to make recommendations on the agency’s IT architecture, perform
portfolio analyses, and review technologies and standards. The IPEC is an executive
management body established to provide strategic direction and to set fiscal year
priorities, among other things. NRC also performs other types of management
control activities that are overseen by these governance boards.

The audit objective is to assess the effectiveness of NRC’s current IT governance in
meeting the agency’s current and future IT needs.

(Addresses Management and Performance Challenge #5)




                                                                    October 1, 2012–March 31, 2013 — 31
                     Audit of NRC’s Use of the NEWFlex Program
                     OIG Strategic Goal: Corporate Management
                     Federal agencies must determine (1) whether to establish alternative work schedule
                     programs, (2) how to administer the programs efficiently, (3) how to comply with
                     the spirit of the President’s memoranda of July 11, 1994, and June 21, 1996, on
                     providing family-friendly work arrangements, and (4) how to ensure that the
                     programs do not cause an adverse agency impact. Agencies wishing to establish
                     flexible or compressed work schedules permitted under 5 U.S.C. 6122 and 5 U.S.C
                     6127 do not need Office of Personnel Management approval.

                     NRC established a program named NEWFlex that offers expanded work schedule
                     and additional credit hour options to help employees balance their work/life
                     activities while at the same time assuring that each NRC office is able to execute its
                     mission. This program is available to almost all NRC staff. NEWFlex is optional
                     to employees, and the schedule is subject to supervisory approval. The program
                     offers a flexible (variable) schedule that includes, but is not limited to, an extension of
                     hours, schedules that can vary day-to-day, and core hours. NEWFlex also applies to
                     employees while working at home, and supports the agency’s telework initiative.

                     The audit objectives are to assess (1) NRC’s adherence to applicable laws and
                     regulations (2) the adequacy of NRC’s internal controls associated with the program
                     and (3) whether the program adequately addresses unique situations such as drug
                     testing, official travel, and other events.

                     (Addresses Management and Performance Challenge #6)



                     Audit of NRC’s Process for Addressing Bankruptcy of
                     Materials Licensees
                     OIG Strategic Goal: Safety
                     A materials licensee’s financial condition could affect its ability to control licensed
                     material. Provisions of the Atomic Energy Act and 10 CFR regulations require that
                     NRC licensees notify NRC in the case of bankruptcy. These provisions are in place
                     to assure that appropriate measures to protect the public health and safety have been
                     or will be taken. These measures include:

                     •	 Maintaining security of licensed material and contaminated facilities.

                     •	 A
                         ssuring that licensed material is transferred only to properly authorized NRC
                        or Agreement State licensees.

                     •	 A
                         ssuring that properly trained and experienced personnel are retained to
                        implement appropriate radiation safety measures.



32 — NRC Office of the Inspector General Semiannual Report to Congress
NRC’s Bankruptcy Review Team was formed to review and act on bankruptcy
notifications as they occur. The team is expected to assess the current public health and
safety condition at the licensee’s facility and any impacts that bankruptcy could have on
licensed operations. NRC staff are then required to address any concerns identified.

The audit objective is to determine if NRC assures that appropriate measures to
protect the public health and safety have been or will be taken during bankruptcies
involving byproduct, source, or special nuclear materials licensees.

(Addresses Management and Performance Challenge #3)




                                                                        October 1, 2012–March 31, 2013 — 33
Investigations
                     During this reporting period, OIG received 108 allegations, initiated 26 investigations,
                     and closed 24 cases. In addition, the OIG made 11 referrals to NRC management and 9
                     to the Department of Justice.

                     Investigative Case Summaries
                     Potential Mischaracterization of Colorado Department of
                     Public Health and the Environment Positions by NRC
                     OIG Strategic Goal: Corporate Management
                     OIG conducted an investigation into an allegation that the NRC Office of
                     Federal and State Materials and Environmental Programs (FSME) had, in official
                     correspondence, materially mischaracterized positions taken by the Colorado
                     Department of Public Health and the Environment (CDPHE), the State level
                     nuclear regulator in the NRC Agreement State7 of Colorado. According to the
                     allegation, the FSME correspondence implied that CDPHE and/or the NRC
                     had determined that “corrective action” was required regarding CDPHE’s
                     implementation of the Atomic Energy Act of 1954, relating to the regulation of
                     uranium mills.

                     The FSME correspondence at issue was distributed to the media and allegedly had
                     the potential to interfere with ongoing litigation in Colorado State court regarding
                     the recently licensed Piñon Ridge uranium mill.

                     OIG learned that FSME sent out two letters referencing the January 2011 CDPHE
                     issuance of a new license for the construction and operation of the Piñon Ridge
                     uranium mill. The first letter, sent February 27, 2012, was to CDPHE, and
                     requested CDPHE assistance in “addressing an inquiry” into “concerns” about
                     the sufficiency of public notice, public comment, and public hearing opportunities
                     that CDPHE provided regarding this licensing action. It also indicated that
                     CDPHE staff had “proposed… corrective actions,” including modification of a State
                     regulation and the conduct of a public hearing regarding the Piñon Ridge license.
                     The second letter, sent March 6, 2012, was to a local environmental activist, and
                     referenced the February 27 letter, which was included as an enclosure and presented
                     to the environmental activist to illustrate NRC’s responsiveness to his concerns.
                     This letter was then referenced in a local news story on March 13, 2012, that
                     negatively characterized CDPHE and its handling of the Piñon Ridge matter.

                     On March 16, 2012, CDPHE responded to both FSME letters and stated that the
                     communication of FSME concerns about CDPHE to third parties prior to obtaining
                     any CDPHE response to those concerns was not appropriate. CDPHE further
                     stated that FSME’s March letter to the environmental activist contradicted the


                     7
                         Agreement States, through agreements with the NRC, have assumed regulatory authority over radioactive
                         materials, and can issue licenses for the use of nuclear materials in certain medical and industrial applications.
                         six Agreement States, including Colorado, can license uranium mills.



34 — NRC Office of the Inspector General Semiannual Report to Congress
February letter to CDPHE in that the letter to CDPHE requested a response from
CDPHE within 30 days, yet the letter to the environmental activist did not treat the
issues as unresolved inquiries pending CDPHE response, but rather as “concluded.”

A FSME manager told OIG that FSME had taken the position that the public
meeting held by CDPHE prior to the issuance of the Piñon Ridge license did not
constitute a sufficient public hearing under Colorado law and regulation. This view
was supported by the NRC Office of the General Counsel and was presented to
CDPHE in October 2011. The FSME manager acknowledged that the February 27
and March 6 letters should have been handled differently, either by (1) delaying the
March 6 letter until CDPHE had the opportunity to address the issue and respond
to FSME, or (2) by informing CDPHE in advance that the hearing issue was an area
of concern and the subject of inquiries from third parties, or through both courses
of action.

OIG found that while the two FSME letters incorrectly implied that FSME had
drawn conclusions about the adequacy of CDPHE’s compliance with its legal
requirements, FSME subsequently provided clarifying correspondence to address
the concerns of CDPHE officials on April 4, 2012. During FSME officials’
followup with CDPHE officials, the CDPHE officials expressed satisfaction with
the FSME response.

The Piñon Ridge litigation was subsequently resolved, whereby CDPHE would
convene an additional public hearing on the licensing action. Hearings were
conducted in November 2012. The final state licensing decision is expected at the
end of April 2013.

(Addresses Management and Performance Challenge #3)



NRC OI Investigation Allegedly Did Not Address
Concerns Raised at San Onofre Nuclear Generating Station
OIG Strategic Goal: Corporate Management
OIG initiated this investigation based on a letter to the office of U.S. Representative
Darrell Issa (R-CA) from a former San Onofre Nuclear Generating Station
(SONGS) employee who alleged that the NRC Office of Investigations (OI) did
not address his retaliation concern. According to the alleger, SONGS management
lowered his performance appraisal because he refused to alter internal industry
reports.

OIG learned that the former SONGS employee’s allegation, regarding cause
evaluations and nuclear notifications, was received and assessed by staff of the NRC
Region IV Allegation Review Board, which reviews all allegations received by the
NRC region. As a result of the review, OI opened an investigation concerning the
retaliation complaint by the former employee against SONGS.


                                                                     October 1, 2012–March 31, 2013 — 35
                     OIG compared OI’s investigative case file and report against the alleged retaliation
                     outlined in the former SONGS employee’s letter to Representative Issa and
                     concluded that OI addressed the former SONGS employee’s issues during its
                     investigation by interviewing relevant personnel, reviewing relevant documents, and
                     giving the former SONGS employee an opportunity to present specific concerns
                     about his allegation. OIG learned that SONGS conducted an independent review
                     of the former employee’s performance appraisal and found that the former SONGS
                     employee’s lowered appraisal was unwarranted but not intentional. As a result,
                     SONGS management corrected the error and the former SONGS employee was
                     compensated with backdated compensation that had been lost due to the error. OI
                     did not substantiate that SONGS retaliated against the former SONGS employee
                     for raising safety concerns.

                     OIG interviewed the former SONGS employee, who admitted that he was not
                     aware of the full details of the OI investigation. The former SONGS employee
                     told OIG that his letter to Representative Issa’s office was based on the NRC
                     closure letter and not a review of OI’s report of investigation. The former SONGS
                     employee stated that he was unaware that the letter was a synopsis of the overall
                     NRC findings and only presented a brief summary of the OI investigation.

                     (Addresses Management and Performance Challenge #3)



                     Fraud by NRC Contractor
                     OIG Strategic Goal: Corporate Management
                     OIG conducted an investigation into an allegation that a major U.S. university
                     performing contract work for NRC improperly billed NRC, through the professor
                     serving as Principal Investigator (PI) for the contract, for work under the contract
                     and failed to provide adequate deliverables and a final deliverable. OIG initiated
                     this proactive review based on reports that the PI was under Federal investigation
                     for submitting fraudulent contract proposals, theft of Federal funds, and money
                     laundering in connection with the PI’s research activities outside of
                     the university.

                     OIG learned that NRC had awarded the university a contract to research local heat
                     transfer phenomena in a reactor cavity cooling system for the period August 2007
                     through February 2009, and the professor under Federal investigation for other
                     matters was listed as the PI on the contract. The contract had five tasks, four of
                     which required deliverables in the form of reports. The fifth task was to provide
                     technical support to the NRC. OIG learned that NRC spent nearly $279,000 on
                     the contract, but that the staff felt the deliverables were not acceptable and did not
                     meet contract requirements, and that the final deliverable was never received.




36 — NRC Office of the Inspector General Semiannual Report to Congress
OIG found that a university associate research scientist and two other university
employees did not perform work on the NRC contract as claimed by the PI and
their hours were improperly billed to the NRC contract.

The U.S. Department of Justice (DOJ) accepted this contract fraud case for civil
litigation and, in October 2012, a settlement agreement between DOJ and the
university was executed in which the university agreed to pay single damages
($278,674.03) plus investigative costs ($192,395.63) for a total $471,069.66.

(Addresses Management and Performance Challenge #6)



Malicious E-Mail Bearing the Name of the NRC OIG
OIG Strategic Goal: Security
OIG conducted an investigation into an allegation from a private citizen that he
received an e-mail from an AOL Inc. e-mail account, nrc.nrc@aol.com, to his
personal e-mail account containing a malicious software program (i.e., malware)
purporting to be from the NRC OIG.

The e-mail subject line stated that a report from OIG had been completed and was
attached to the e-mail. The attachment to the e-mail was in a .zip extension format
and was identified by the private citizen’s e-mail provider as containing malware.
OIG’s Cyber Crime Unit (CCU) was unable to obtain a copy of the malware for
analysis from the private citizen’s e-mail provider because the system identified
the attachment as malware and removed it from the e-mail to prevent its further
propagation.

OIG found that the perpetrator masked his/her identity by surreptitiously taking
control of another entity’s computer to launch the e-mail containing malware
from the compromised computer while effectively masking their true location and
activities. CCU determined that the perpetrator utilized a compromised server in
California to access the nrc.nrc@aol.com account. The internet protocol address
account information revealed the account belonged to a California medical center;
however, the Internet service provider did not maintain any connection logs for the
medical center to assist in identifying a possible subject.

(Addresses Management and Performance Challenge #5)




                                                                   October 1, 2012–March 31, 2013 — 37
                     Concerns Regarding the NRC’s “Open Door” Policy and
                     Differing Professional Opinion Process
                     OIG Strategic Goal: Safety
                     OIG conducted an investigation into an anonymous allegation that questioned
                     NRC’s Open, Collaborative Work Environment (OCWE) and Differing Professional
                     Opinion (DPO) process. The anonymous alleger indicated that the process sounded
                     fair, “but when the rubber meets the road, the programs fall apart.” The alleger did
                     not provide any specific examples to support the allegation. However the alleger
                     wrote that (1) OCWE does not mean management has to listen, but just provides a
                     mechanism for subordinates to say something, and (2) people do not raise concerns
                     due to fear of retribution.

                     NRC defines OCWE as a work environment that encourages all employees and
                     contractors to promptly raise concerns and differing views without fear of reprisal.

                     NRC describes the DPO program as a formal process that allows all employees
                     and contractors to have their differing views on established, mission-related
                     issues considered by the highest level managers in their organizations, i.e., office
                     directors and regional administrators. The process also provides managers with an
                     independent, three-person review of the issue (one person chosen by the employee).
                     After a decision is issued to an employee, he or she may appeal the decision to
                     the Executive Director for Operations (EDO) or the Chairman for those offices
                     reporting to the Commission.

                     OIG learned that a listing and summary of all 21 DPOs that have been received,
                     processed, and completed since the DPO Program was revised in May 2004 is posted
                     on the NRC internal DPO Web site. The Web site reflected the agency has closed
                     nine cases that were submitted in 2005, six submitted in 2006, two submitted in
                     2008, one submitted in 2009, one submitted in 2010, and two submitted in 2011.
                     OIG reviewed the summaries for the three most recent DPO closures (filed in
                     2010 and 2011) and noted that in all three cases, the review panel agreed with at
                     least some of the issues raised in the DPOs and made recommendations intended
                     to address these matters. In addition, the cognizant office director agreed with the
                     panel’s conclusions and recommendations.

                     Due to lack of specific examples in the anonymous allegation, OIG interviewed
                     National Treasury Employees’ Union (NTEU) representatives at NRC and the
                     NRC DPO program manager as to their perceptions of the program. The NTEU
                     representatives were interviewed because they potentially would have knowledge of
                     NRC staff who filed DPOs and perceived retaliation for using the DPO program.
                     None of the NTEU members interviewed could provide specific examples of
                     retaliation by management against a DPO submitter, but they agreed that because
                     there is a perception by NRC staff that filing a DPO leads to retaliation, many staff
                     are unwilling to use the program.




38 — NRC Office of the Inspector General Semiannual Report to Congress
The DPO Program Manager was aware of the negative perceptions of the DPO
program from employees (including staff and management) who have used the
process, employees who have participated in focus groups on internal safety culture
and the 2009 Safety Culture Climate Survey (e.g., only 54 percent thought it was
effective). These sources identified multiple issues that could result in negative
perceptions, including fear of retaliation. The program manager, however, stated
that some of the measures that make the program fair and useful are having an
independent panel of NRC employees review the issues (one panel member selected
by the employee), having the option of appealing the decision to the EDO, and
allowing the employee to ask for the discretionary release of the DPO records. The
DPO Program Manager stated that NRC Office of Enforcement, which oversees
the program, is aware of employee concerns and is taking actions to address these
concerns as part of its efforts to revise the DPO Management Directive.

(Addresses Management and Performance Challenge #3)



Alleged Intimidation of an NRC Office Director by an
NRC Commissioner
OIG Strategic Goal: Corporate Management
OIG conducted an investigation into an anonymous allegation that an NRC
Commissioner raised his voice during a one-on-one interaction with an NRC
office director in the director’s office, and forcibly shut the director’s office door.
It was further alleged that the Commissioner attempted to physically intimidate
the office director. This incident was allegedly overheard by others on the office
director’s staff. OIG interviews concerning this allegation disclosed the names of
two additional office directors who may have had intimidating interactions with
the Commissioner. OIG interviewed the two office directors to determine whether
such interactions occurred.

OIG learned in an interview with the first office director that it is routine practice for
office directors to have periodic meetings with Commissioners to discuss significant
activities within their offices. OIG found that in the instant case, during a periodic
meeting in the director’s office, the Commissioner raised his voice when questioning
the rationale for an activity being carried out by the office. The investigation found
that during the discussion, the Commissioner shut the office door in a manner that
was described by those nearby as forceful or slamming. The Commissioner explained
to the office director that a similar activity was being carried out by another program
office and that it was a waste of resources to be duplicating that effort. The office
director explained to the Commissioner the reasons for their particular activity and
the conversation then moved onto different topics.

Further, during its investigation, OIG did not develop any information to suggest
that any direction was provided by the Commissioner to the director or in other



                                                                       October 1, 2012–March 31, 2013 — 39
                     higher level management venues to stop or otherwise interfere with the activity
                     at issue. Additionally, OIG interviewed the two other office directors and neither
                     viewed their interactions with the Commissioner to be intimidating.

                     OIG did not substantiate that the NRC Commissioner engaged in physically or
                     otherwise intimidating behavior toward the office director or two other office
                     directors identified during the investigation as possibly having had intimidating
                     interactions with the Commissioner.

                     (Addresses Management and Performance Challenge #7)




40 — NRC Office of the Inspector General Semiannual Report to Congress
  Summary of OIG Accomplishments
  October 1, 2012, through March 31, 2013


  Investigative Statistics
  Source of Allegations
                    NRC Employee                                         46

                 NRC Management                  5

         Other Government Agency         2

                     General Public                                25

                            Projects             6
                 Regulated Industry          4
                          Anonymous                           17
                          Intervenor     2
                      Congressional     1

                                       Allegations resulting from Hotline Program: 58
                                                                           Total: 108




  Disposition of Allegations

                               Total                                                                       108

             Closed Administratively                                    42

     Referred for OIG Investigation                                25

Referred to NRC Management and Staff                     11

             Pending Review Action                            15

         Correlated to Existing Case                 9

             Referred to OIG Audit      1

           Referred to Other Agency      1
                          Processing         4




                                                                             October 1, 2012–March 31, 2013 — 41
                     Status of Investigations
                     DOJ Acceptance  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .1
                     DOJ Referrals  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 9
                     DOJ Pending .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .2
                     DOJ Declinations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .6
                     Criminal Information Pleas .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .5
                     Civil Recovery ($471,069.66)  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .1
                     NRC Administrative Actions:
                     	     Terminations and Resignations .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .1
                     	     Suspensions and Demotions .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 2
                     	Counseling .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .0
                     	     Recoveries ($7,514.59)  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .4
                     	     Other (Letter of Reprimand) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .1
                     State Referrals .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 0
                     State Pending .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .0
                     State Accepted .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 0
                     PFCRA Referral  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .0
                     PFCRA Acceptance .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 0
                     PFCRA Recovery .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 0
                     PFCRA Pending .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .2



                     Summary of Investigations
                     Classification of 		           Opened 	 Closed 	 Cases in
                     Investigations	     Carryover	 Cases	   Cases	 Progress

                     Employee Misconduct	                                                 24	                12	                  9	             27
                     Event Inquiry	                                                         2	                 0	                 0	               2
                     External Fraud	                                                        6	                 1	                 1	               6
                     False Statements	                                                      5	                 0	                 1	               4
                     Management Misconduct	                                               12	                  7	                 7	             12
                     Miscellaneous	                                                         5	                 0	                 2	               3
                     Proactive Initiatives	                                                 8	                 3	                 1	             10
                     Technical Allegations	                                                 6	                 2	                 3	               5
                     Theft	                                                                 1	                 0	                 0	               1
                     Whistleblower Reprisal	                                                0	                 1	                 0	               1
                     	 	 Grand Total	                                                    69	                 26	               24	               71




42 — NRC Office of the Inspector General Semiannual Report to Congress
Audit Listings
Date          Title                                                     Audit Number

10/01/2012	   Inspector General’s Assessment of the Most Serious	       13-A-01
		            Management Challenges Facing the NRC

10/24/2012	   Audit of NRC’s Process for Calculating License Fees	      13-A-02

11/08/2012	   Independent Evaluation of NRC’s Implementation of	        13-A-03
		            the Federal Information Security Management Act
		            (FISMA) for Fiscal Year 2012

11/14/2012	   Results of the Audit of the United States Nuclear 	       13-A-04
		            Regulatory Commission’s Financial Statements
		            for Fiscal Years 2012 and 2011

11/16/2012	   Independent Auditors’ Report on the U.S. Nuclear	     13-A-05
		            Regulatory Commission’s Special-Purpose Financial
		            Statements as of September 30, 2012 and 2011, and for
		            the Years then Ended

12/20/2012	   Information Security Risk Evaluation of Region I – 	      13-A-06
		            King of Prussia, PA	

12/20/2012	 Information Security Risk Evaluation of Region IV –	        13-A-07
		Arlington, TX

01/23/2013	 Independent Evaluation of NRC’s Use and Security of 	 13-A-08
		Social Media

01/23/2013	 Audit of NRC’s Progress in Carrying Out the “25 	           13-A-09
		          Point Implementation Plan to Reform Federal
		Information Technology Management”

01/30/2013	   Review of NRC’s Implementation of the Federal 	           13-A-10
		            Managers Financial Integrity Act for Fiscal Year	 2012

01/30/2012	   Information Security Risk Evaluation of NRC’s		           13-A-11
		            Technical Training Center – Chattanooga, TN

02/08/2013	 Independent Auditors’ Report on the Condensed	              13-A-12
		Financial Statements

02/26/2013	   Audit of NRC’s Fiscal Year 2012 Compliance with	          13-A-13
		            the Improper Payments Elimination and Recovery
		            Act of 2010

03/14/2013	 Audit of NRC’s Safety Training and Development for	         13-A-14
		Technical Staff

03/29/2013	   2012 NRC Safety Culture and Climate Survey		              13-A-15

                                                                    October 1, 2012–March 31, 2013 — 43
          Contract Audit Reports
          OIG 	             Contractor/Title/	                             Questioned	   Unsupported
          Issued Date	      Contract Number	                               Costs	        Costs
          10/23/2012        Southwest Research, Inc.                       0             0
                            Audit Report on Southwest Research, Inc.’s
                            Actions to Correct Deficiencies Related to
                            Compliance with DFARS 242.242-7006(c)(8)
                            NRC-02-06-018
                            NRC-02-06-021
                            NRC-41-09-011
                            NRC-03-09-070
                            NRC-03-10-066
                            NRC-03-10-070
                            NRC-03-10-081
                            NRC-04-10-144
                            NRC-HQ-11-C-03-0047
                            NRC-HQ-11-C-03-0058

          10/23/2012        Safeware Engineering Corporation               0             0
                            Independent Audit of Safeware Engineering
                            Corporation Preaward Accounting System
                            Survey
                            NRC-HQ-12-C-04-0100
                                                                           0             0
          03/18/2013        Safeware Engineering Corporation
                            Independent Audit of Safeware Engineering
                            Corporation’s Accounting System Design Audit
                            Follow Up
                            NRC-HQ-12-C-04-0100




44 — NRC Office of the Inspector General Semiannual Report to Congress
Audit Resolution Activities
TABLE I
OIG Reports Containing Questioned Costs8
		                  Questioned	Unsupported
	        Number of	   Costs	      Costs
Reports	  Reports	 (Dollars)	(Dollars)

A. 	 For which no management decision
     had been made by the commencement
     of the reporting period	                                                     1	                     $540,637	          0

B. 	 Which were issued during the reporting
     period	                                                                      0	 0	0

	         Subtotal (A + B)	                                                       1	 $540,637	0	

C. 	 For which a management decision was
     made during the reporting period:	

	         (i) dollar value of disallowed costs	                                   0	                          0	            0	

	         (ii) dollar value of costs not disallowed	                              0	                          0	            0	

D. 	 For which no management decision had
     been made by the end of the reporting period	                                1	                     $540,637	          0




8
    Questioned costs are costs that are questioned by OIG because of an alleged violation of a provision of a law,
    regulation, contract, grant, cooperative agreement, or other agreement or document governing the expenditure of
    funds; a finding that, at the time of the audit, such costs are not supported by adequate documentation; or a finding
    that the expenditure of funds for the intended purpose is unnecessary or unreasonable.



                                                                                                October 1, 2012–March 31, 2013 — 45
                   TABLE II
                   OIG Reports Issued with Recommendations
                   That Funds Be Put to Better Use9
                   	                                                                                 Number of	               Dollar Value
                   Reports	                                                                           Reports	                 of Funds

                   A.	       For which no management decision	 0	 0
                             had been made by the commencement
                             of the reporting period			

                   B.	       Which were issued during the 	 0	                                                                        0
                             reporting period		

                   C.	       For which a management decision was	
                             made during the reporting period:		

                   	          (i) 	 dollar value of recommendations	                                        0	                        0
                             	      that were agreed to by management

                   	          (ii) 	 dollar value of recommendations 	                                      0	                        0
                              	      that were not agreed to by management

                   D.	       For which no management decision had	                                          0	                        0
                             been made by the end of the reporting
                             period




                   9
                       A “recommendation that funds be put to better use” is a recommendation by OIG that funds could be used more
                       efficiently if NRC management took actions to implement and complete the recommendation, including: reductions
                       in outlays; deobligation of funds from programs or operations; withdrawal of interest subsidy costs on loans or loan
                       guarantees, insurance, or bonds; costs not incurred by implementing recommended improvements related to the
                       operations of NRC, a contractor, or a grantee; avoidance of unnecessary expenditures noted in preaward reviews of
                       contract or grant agreements; or any other savings which are specifically identified.




46 — NRC Office of the Inspector General Semiannual Report to Congress
TABLE III
Significant Recommendations Described in Previous
Semiannual Reports on Which Corrective Action Has
Not Been Completed
Date	         Report Title	                                                  Number

05/26/2003	    Audit of NRC’s Regulatory Oversight of Special 	              OIG-03-A-15		
	              Nuclear Materials

 Recommendation 1: Conduct periodic inspections
	
 to verify that material licensees comply with material
 control and accountability (MC&A) requirements,
 including, but not limited to, visual inspections of
 licensees’ special nuclear material (SNM) inventories
 and validation of reported information.

 Recommendation 3: Develop and implement a quality
	
 assurance process that ensures that collected enforcement
 data is accurate and complete.




                                                                  October 1, 2012–March 31, 2013 — 47
            TABLE IV
            Summary of Audit Reports Without Management Decision for
            More Than Six Months
            Date		 Report Title	                                                        Number

            7/12/2012	      Audit of NRC’s Inspections, Tests, Analyses, 	              OIG-12-A-16		
            	               and Acceptance Criteria (ITAAC) Process

            	Summary: OIG made 10 recommendations to the
               Executive Director for Operations of which one is
               unresolved.

                            Recommendation 10: Recommended that the Executive
                            Director for Operations develop and implement a
                            change management process to address future change in
                            the ITAAC process that can create barriers to effective
                            communication and coordination.

                            Reason Unresolved: NRC staff stated agreement with
                            the recommendation, yet the agency’s actions do not
                            meet the intent of OIG’s recommendation. Instead, the
                            staff pointed to a September 2010 “Leading Change”
                            training session that introduced Office of New Reactors
                            (NRO) managers to a process focused on eight steps to
                            transformational change. The staff then organized actions
                            that had already been taken during the development
                            and implementation of the ITAAC process under the
                            eight steps in their recommendation followup response
                            to OIG. OIG notes that this is not the same as the
                            development and implementation of a change management
                            process. Moreover, agency staff have not committed to
                            implementing a change management process to address
                            future changes that may impact the ITAAC process,
                            which is the essence of the recommendation. The agency’s
                            potential response to any future change would not benefit
                            from NRO having organized past actions for ITAAC
                            implementation into the eight change management steps.
                            As a result, this recommendation remains unresolved. OIG
                            expects to receive an updated response from NRC by
                            August 15, 2013.




48 — NRC Office of the Inspector General Semiannual Report to Congress
Abbreviations and Acronyms
10 CFR		 Title 10, Code of Federal Regulations
ADDIE		 Analysis, Design, Development, Implementation, and Evaluation
AOL		 AOL Inc.
CCU		 Cyber Crime Unit
CDPHE		 Colorado Department of Public Health and the Environment
CIGIE		 Council of the Inspectors General on Integrity and Efficiency
DOJ		 U.S. Department of Justice
DPO		 Differing Professional Opinion
EDO		 Executive Director for Operations (NRC)
EIS		 environmental impact statement
E-Safe		 Electronic Safe
FISMA		 Federal Information Security Management Act
FSME		 Office of Federal and State Materials and Environmental Management Programs (NRC)
FY		 fiscal year
IAM		 Issue Area Monitor
IG		 Inspector General
IPEC		 Information Technology/Information Management Portfolio Executive Council
IT		 information technology
ITAAC		 Inspections, Tests, Analyses, and Acceptance Criteria
ITB		 Information Technology/Information Management Board
MC&A		 material control and accountability
MD		 Management Directive
MML		 Master Materials Licenses
NEPA		 National Environmental Policy Act of 1969
NRC		 U.S. Nuclear Regulatory Commission
NRO		 Office of New Reactors (NRC)
NTEU		 National Treasury Employees Union
OBRA-90		 The Omnibus Budget Reconciliation Act of 1990, as amended
OCHCO		 Office of the Chief Human Capital Officer
OI		 Office of Investigations
OIG		 Office of the Inspector General (NRC)
OMB		 Office of Management and Budget
OWCE		 Open, Collaborative Work Environment
PI		 Principal Investigator
SGI 		 Safeguards Information
SGI LAN		 Safeguards Information Local Area Network
SLES		 Safeguards Local Area Network and Electronic Safe
SONGS		 San Onofre Nuclear Generating Station
TTC		 Technical Training Center
URL		 Uniform Resource Locator


                                                                October 1, 2012–March 31, 2013 — 49
Reporting Requirements
                     The Inspector General Act of 1978, as amended (1988), specifies reporting requirements
                     for semiannual reports. This index cross-references those requirements to the applicable
                     pages where they are fulfilled in this report.

                     	
                     Citation	           Reporting Requirements	                                              Page

                     Section 4(a)(2) 	 Review of Legislation and Regulations	                                   6-7

                     Section 5(a)(1) 	 Significant Problems, Abuses, and Deficiencies	               12-24, 34-40

                     Section 5(a)(2) 	 Recommendations for Corrective Action	                                12-24

                     Section 5(a)(3) 	 Prior Significant Recommendations Not Yet Completed	                      47

                     Section 5(a)(4) 	 Matters Referred to Prosecutive Authorities	                              42

                     Section 5(a)(5) 	 Information or Assistance Refused	                                    None

                     Section 5(a)(6) 	 Listing of Audit Reports	                                                 43

                     Section 5(a)(7) 	 Summary of Significant Reports	                               12-24, 34-40

                     Section 5(a)(8) 	 Audit Reports — Questioned Costs	                                         45

                     Section 5(a)(9) 	 Audit Reports — Funds Put to Better Use	                                  46

                     Section 5(a)(10)	 Audit Reports Issued Before Commencement of 	                         None
                     	                 the Reporting Period for Which No Management
                     	                 Decision Has Been Made	

                     Section 5(a)(11) 	 Significant Revised Management Decisions	                            None

                     Section 5(a)(12) 	 Significant Management Decisions With Which	                         None
                     	                  the OIG Disagreed	

                     Sec. 989C. of the Dodd-Frank Wall Street Reform and Consumer Protection Act (Public
                     Law 111-203) requires Inspectors General to include the results of any peer review conducted
                     by another Office of Inspector General during the reporting period; or if no peer review was
                     conducted, a statement identifying the date of the last peer review conducted by another Office
                     of Inspector General.

                     Section 989C.	      Peer Review Information	                                                51




50 — NRC Office of the Inspector General Semiannual Report to Congress
Appendix
Peer Review Information
The OIG Audit and Investigative Programs undergo a peer review every 3 years.

Audits
The NRC OIG Audit Program was peer reviewed most recently by the National Archives
and Records Administration Office of Inspector General on September 27, 2012.

Investigations
The NRC OIG Investigative Program was peer reviewed most recently by the
U.S. Department of State Office of Inspector General on July 6, 2010.




                                                                October 1, 2012–March 31, 2013 — 51
52 — NRC Office of the Inspector General Semiannual Report to Congress
OIG VISION                                                           OIG STRATEGIC GOALS
“We are agents of positive change striving for continuous            1. S
                                                                         trengthen NRC’s efforts to protect public health and safety
improvement in our agency’s management and program operations.”         and the environment.
                                                                     2. E nhance NRC’s efforts to increase security in response to an
                                                                        evolving threat environment.
OIG MISSION
                                                                     3. I ncrease the economy, efficiency, and effectiveness with
NRC OIG’s mission is to (1) independently and objectively conduct       which NRC manages and exercises stewardship over its
and supervise audits and investigations relating to NRC’s programs      resources.
and operations; (2) prevent and detect fraud, waste, and abuse;
and (3) promote economy, efficiency, and effectiveness in NRC’s
programs and operations.




COVER PHOTOS:

Left: Technician above commercial irradiator.
Photo courtesy Nordion.

Middle: NRC Inspector at Calvert Cliffs Nuclear Power Station.

Right: Grand Gulf Nuclear Power Station.
Photo courtesy of Entergy Nuclear.
The NRC OIG Hotline
The Hotline Program provides NRC employees, other Government employees, licensee/utility
employees, contractors, and the public with a confidential means of reporting suspicious
activity concerning fraud, waste, abuse, and employee or management misconduct.
Mismanagement of agency programs or danger to public health and safety may also be
reported. We do not attempt to identify persons contacting the Hotline.

What should be reported:
• Contract and Procurement Irregularities    • Abuse of Authority
• Conflicts of Interest                      • Misuse of Government Credit Card
• Theft and Misuse of Property               • Time and Attendance Abuse
• Travel Fraud                               • Misuse of Information Technology Resources
• Misconduct                                 • Program Mismanagement

                                                                                                    Office of the Inspector General
Ways To Contact the OIG
                               Call:                                                        Semiannual Report to Congress
                               OIG Hotline
                               1-800-233-3497                                                      October 1, 2012–March 31, 2013
                               TDD: 1-800-270-2787
                               7:00 a.m. – 4:00 p.m. (EST)
                               After hours, please leave a message.


                               Submit:
                               Online Form
                               www.nrc.gov
                               Click on Inspector General
                               Click on OIG Hotline



                               Write:
                               U.S. Nuclear Regulatory Commission
                               Office of the Inspector General
                               Hotline Program, MS O5 E13
                               11555 Rockville Pike
                               Rockville, MD 20852-2738


NUREG-1415, Vol. 26, No. 2
April 2013
